<html>
<title> - PRACTICE MAKES PERFECT: STRENGTHENING HOMELAND SECURITY BY EXERCISING TERRORISM SCENARIOS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                        PRACTICE MAKES PERFECT:
                    STRENGTHENING HOMELAND SECURITY
                   BY EXERCISING TERRORISM SCENARIOS

=======================================================================

                                HEARING


                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUlY 8, 2004

                               __________

                           Serial No. 108-53

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                 U.S. GOVERNMENT PRINTING OFFICE

24-733                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                  (II)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    41
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    44
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    38
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................     5
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    36
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi..................................    34

                               WITNESSES

Mr. Thomas O. Mefford, Director, DuPage County Office of Homeland 
  Security and Emergency Management State of Illinois:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24

Ms. C. Suzanne Mencer, Executive Director, Office for State and 
  Local Government Coordination and Preparedness, Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

Accompanied by:
Mr. Corey D. Gruber, Associate Director, Office for Domestic 
  Preparedness, Department of Homeland Security..................    28

Mr. Clark S. Kimerer, Deputy Chief of Operations, Seattle Police 
  Department, Seattle Washington:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18

                                APPENDIX

Material Submitted for the Record:
  Questions for Ms. C. Suzanne Mencer............................    47
  Prepared Statement of Advanced Systems Technology, Inc48 <plus-minus>


                        PRACTICE MAKES PERFECT:



   STRENGTHENING HOMELAND SECURITY BY EXERCISING TERRORISM SCENARIOS

                              ----------                              


                         Thursday, July 8, 2004

                          House of Representatives,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:11 p.m., in room 
210, Cannon House Office Building, Hon. Christopher Cox 
[chairman of the committee] presiding.
    Present: Representatives Cox, Dunn, Camp, Gibbons, Turner, 
Thompson, Dicks, Andrews, Lofgren, McCarthy, Christensen, 
Etheridge, Lucas and Langevin.
    Chairman Cox. Welcome. The Select Committee on Homeland 
Security will come to order. The committee is meeting today to 
examine how terrorism preparedness exercises function in 
strengthening the Federal, State and local government homeland 
security response capabilities.
    In order to allow us to hear from our witnesses more 
quickly, I would ask members to waive or limit the duration of 
oral opening statements. Those who are present within 5 minutes 
of the gavel and waive their opening statements will be 
allotted 3 additional minutes for questioning the panel. If 
members have written statements, they may be included in the 
hearing record.
    As most of you know, this committee recently reported 
H.R.266, the Faster and Smarter Funding For First Responders 
Act. This bill authorizes $3.4 billion annually to aid first 
responders in both preventing and responding to acts of 
terrorism through improved planning, equipment, training and 
exercises. We expect this important bill to be considered on 
the House floor shortly.
    Today, we examine how one part of the grant funds 
authorized by this bill will be used to strengthen our Nation 
through terrorism preparedness exercises. Scenario-based 
training is critical to an effective counterterrorism program 
because the terrorist threat is often not visible. We need to 
remind ourselves through training of how real and enduring this 
threat is, as we were reminded again today by Secretary Ridge. 
The stakes are high.
    In evaluating FEMA's response to the Oklahoma City bombing, 
the General Accounting Office cited a number of unique 
terrorism-related challenges. The arrival agencies on the scene 
weren't coordinated in their times of arrival. There was a 
clear need to better integrate typical law enforcement 
functions, such as preserving the chain of evidence, with 
typical disaster response and recovery functions, such as 
clearing rubble.
    The mission to create a national strategy for terrorism 
preparedness exercises began with President Bush's national 
strategy for homeland security. It was codified in the Homeland 
Security Act, which gave the Department of Homeland Security 
the specific responsibility to coordinate preparedness efforts, 
as well as to work with State and local entities on exercises 
to combat terrorism.
    In response to this mandate, the Department has focused on 
two areas, national programs and State and local programs. The 
national program focuses broadly on the Federal Government's 
response and coordination of Federal, State and local 
resources. For example, the TOPOFF exercise series takes place 
over multiple days and tests the ability of several communities 
to respond to weapons of mass destruction. TOPOFF 2 was 
conducted almost 1 year ago and involved over 20,000 
participants, over 25 Federal, State and local agencies and 
departments and the government of Canada.
    We are fortunate to have with us today key participants in 
the 2003 TOPOFF 2 exercises from both the Chicago and Seattle 
sites. I look forward to hearing the assessments of our 
witnesses on the strengths and weaknesses of the TOPOFF 
exercise.
    TOPOFF 2 cost $16 million, but it provided valuable 
lessons. Agencies were able to rehearse for the first time the 
actions they would take when the homeland security advisory 
system is elevated to red. Should highways be closed? Should 
airports be closed? Who is going to make these decisions? The 
exercise allowed us to see the consequences of making these 
very decisions. Similarly, the original TOPOFF exercise 
revealed difficulties in distributing the strategic national 
stockpile.
    Since then, HHS, DHS, and State and local governments have 
focused on remedying these problems; and we are now better 
prepared to deliver and distribute the stockpile than we were 
before TOPOFF.
    The Department clearly needs a robust terrorism 
preparedness exercise program. It needs a program that is 
coordinated across the Department and is programmed to share 
data and lessons learned with State and local governments and, 
when appropriate, with the private sector. It is our intent to 
codify and expand some of these exercise program elements in 
the committee's first-ever DHS authorization bill.
    We are fortunate today to have representatives from the 
front lines in this terrorism preparedness effort, from the 
Department of Homeland Security, from the Seattle Police 
Department and from the DuPage County Office of Emergency 
Management. I look forward to hearing your thoughts and 
testimony today.

          Prepared Statement of the Honorable Christopher Cox

    As most of you know, this Committee recently reported out H.R. 
3266, The Faster and Smarter Funding for First Responders Act. This 
bill authorizes a $3.4 billion annually to aid first responders in both 
preventing and responding to acts of terrorism--through improved 
planning, equipment, training, and exercises. We expect this important 
bill to be considered on the House floor shortly.
    Today, we examine how one part of the grant funds authorized by 
this bill will be used to strength,en our Nation through terrorism 
preparedness exercises. Scenario-based training is critical to an 
effective counterterrorism program because the terrorist threat is 
often not visible and complacency can easily set in. We need to remind 
ourselves through training of how real and enduring this threat is--as 
we were reminded again this morning by Secretary Ridge. The stakes are 
high. In evaluating FEMA's response to the Oklahoma City bombing, GAO 
cited a number of unique, terrorism-related challenges. The arrival 
agencies on the scene were not coordinated. There was a clear need to 
better integrate typical law enforcement functions, like preserving the 
chain of evidence, with typical disaster response and recovery 
functions, like clearing rubble.
    The mission to create a national strategy for terrorism 
preparedness exercises began with President Bush's National Strategy 
for Homeland Security and was codified in the Homeland Security Act, 
which gave DHS the specific responsibility to coordinate preparedness 
efforts at the Federal level, as well as to work with state and local 
entities on exercises to combat terrorism. In response to this mandate, 
the Department has focused on two areas--national programs and state 
and local programs.
    The National Program focuses broadly on the Federal Government's 
response and coordination of federal, state and local resources. For 
example, the TOPOFF exercise series takes place over multiple days and 
tests the ability of several communities to respond to weapons of mass 
destruction. TOPOFF 2 was conducted almost one year ago, and involved 
over 20,000 participants, and over 25 federal, state, and local 
agencies and departments, and the Canadian Government. We are fortunate 
to have with us today key participants in the 2003 TOPOFF 2 exercises 
from both the Chicago and Seattle sites. I look forward to hearing the 
assessments of our witnesses as to the strengths and weaknesses of the 
TOPOFF exercise.
    TOPOFF 2 cost $16 million, but it provided valuable lessons. 
Agencies were able to rehearse, for the first time, the actions they 
would take when the Homeland Security Advisory System is elevated to 
Red. Should highways be closed? Should airports be closed? Who would 
make these decisions? The exercise allowed us to see the consequences 
of making these very decisions. Similarly, the original TOPOFF exercise 
revealed difficulties in distributing the Strategic National Stockpile. 
Since then, HHS, DHS and state and local governments have focused on 
remedying these problems, and we are now better prepared to deliver and 
distribute the Stockpile than we were before TOPOFF.
    The Department clearly needs a robust terrorism-preparedness 
exercise program. It needs a program that is coordinated across the 
Department and is programmed to share data and lessons learned with 
state and local governments and, when appropriate, with the private 
sector. It is our intent to codify and expand some of these exercise 
program elements in the Committee's first-ever DHS authorization bill.
    We are fortunate today to have representatives from the front lines 
in this terrorism preparedness effort--from the Department of Homeland 
Security, the Seattle Police Department and the DuPage County Office of 
Emergency Management. I look forward to hearing your thoughts and 
testimony today.

    I now recognize the Ranking Member, Jim Turner of Texas, 
for an opening statement.
    Mr. Turner. Thank you, Mr. Chairman; and welcome to all of 
our witnesses. We look forward to hearing about your experience 
with the TOPOFF exercise series. I think it is very critical 
that we do these kind of exercises, and I know that you will 
have some good reports and information to share with us about 
the exercises that have been conducted to date. There is no 
doubt that effective exercises at all levels of government will 
help us to be prepared in the event of a terrorist attack, and 
I commend you on your efforts and your work in this area.
    There are several issues that I hope you will try to 
address in your comments to us today.
    First, I am concerned about how we develop the scenarios 
for the exercises. Do we rely upon the intelligence 
information, the threat, and the vulnerability assessments that 
our Department of Homeland Security is supposed to be 
preparing? Or do the scenarios come from some other source? If 
we are not using the threat and vulnerability information, it 
seems to me that we are not conducting the exercises that we 
may need to be conducting; and I would like to hear how the 
scenario development process occurs.
    Second, I would like to know a little bit about how the 
Department of Homeland Security measures the effectiveness of 
these exercises. What readiness level are you seeking to 
achieve? How does the conduct of an exercise contribute to our 
State and local governments' overall preparedness? And, 
following an exercise, do the Department and the participating 
State and locality have a clear understanding of what 
additional planning, training, and equipment is necessary to 
prepare that impacted community for that kind of terrorist 
incident?
    Third, I would be interested in knowing if the actual--or 
if the conduct of these exercises has actually led to fixing 
any of the problems that were discovered.
    The exercise I understand we are going to hear about today 
occurred about a year ago, in May of 2003; and it would be 
interesting to know not only how the exercise was carried out 
but, perhaps more importantly, how DHS and the Cities of 
Seattle and Chicago have addressed the shortfalls that were 
uncovered through the exercise.
    It is my understanding that the after action report for 
that exercise revealed that there was little understanding of 
inter--or intra-agency command and control protocols, that many 
exercise players did not fully understand their reporting 
relationships with Federal officials, that a number of major 
pre-existing interagency Federal plans and processes were 
circumvented during the exercise. There were logistical 
difficulties accessing DHS assets and resources, and there was 
a lack of a robust and efficient emergency communications 
infrastructure in the Chicago hospital system that impeded 
response.
    All of those issues seem to be important, and the more 
interesting side of your testimony would be what have we done 
since that exercise to solve those uncovered problems. So I 
would appreciate a description of what lessons we learned and 
how have we responded to them.
    So thank you so much for being here, and we appreciate very 
much the good work that you are doing. Thank you.

                    Prepared Statement of Jim Turner

    Thank you, Mr. Chairman.
    Director Mencer, welcome back. Mr. Mefferd and Mr. Kimmerer, 
welcome to Washington. Thank you all for appearing before the Select 
Committee today, and I look forward to your testimony on the Department 
of Homeland Security's exercise programs, and specifically the TOPOFF 
exercise series.
    The Department of Homeland Security, and particularly the Office 
for Domestic Preparedness, plays a crucial role in preparing our 
country to win the war on terror. It oversees a range of programs to 
prepare our first responders, individually, and our communities, more 
broadly, to prepare for and respond to acts of terrorism. It is 
critical that the job is done right.
    Effective exercises at all levels of government are a key component 
of our terrorism preparedness activities. The Arlington County, 
Virginia Fire Department's after-action report on their response to the 
9-11 attack noted that frequent training and exercises with the Federal 
Bureau of Investigation, the Pentagon, and the Military District of 
Washington made a substantial contribution to their successful response 
operation.
    Therefore, the Department is to be commended for its commitment to 
a robust exercise program, particularly the TOPOFF program, and for the 
efforts it has undertaken to provide state and local governments with 
guidance on developing and conducting exercises.
    However, there are several issues that I would like you to address 
either in your testimony or in response to the Committee's questions.
    First, I am concerned that in the development of exercise 
scenarios, DHS does not utilize threat and vulnerability information to 
guide its choice of either the location of the incident, or the mode of 
terrorist attack. Why don't the TOPOFF exercises focus on what the 
intelligence assessment indicates is a city's highest vulnerability? I 
am afraid that Department's inability to develop a comprehensive threat 
and vulnerability assessment--which has been noted by this Committee on 
numerous occasions--has a significant, negative impact on the conduct 
of your exercise program.
    Second, how is DHS measuring the effectiveness of its exercise 
program? What ``readiness'' level are you seeking to achieve in the 
exercise venues, and how does the conduct of an exercise contribute to 
a state or local government's overall preparedness? Following an 
exercise, do DHS and the participating states and localities have a 
clear understanding of what additional planning, training, and 
equipment are necessary to fully prepare the impacted communities?
    Third, while the actual conduct of exercises is important, it is 
equally important to fix the problems revealed by the exercise. The 
TOPOFF exercise we will hear about today took place over a year ago, in 
May of 2003. At this point, while I am interested in how the exercise 
was carried out, I am much more interested in how both DHS and the 
cities of Seattle and Chicago addressed any shortfalls in their 
response operations. For example, the after-action report for the 
TOPOFF 2 exercises noted the following:
        <bullet> There was little understanding of inter- and intra-
        agency command and control protocols, and many exercise players 
        did not fully understand the reporting relationships among 
        federal officials;
        <bullet> A number of major, pre-existing interagency federal 
        plans and processes were circumvented during the exercise;
        <bullet> There were logistical difficulties accessing DHS 
        assets and resources; and
        <bullet> A lack of a robust and efficient emergency 
        communications infrastructure in Chicago's hospital system 
        impeded response, and resource demands challenged these 
        hospitals throughout the exercise.
    I am interested in understanding how you have improved your 
operations since the exercise to assure us, and the nation, that in the 
event of a real terrorist attack, we will not repeat the same mistakes. 
Therefore, I would appreciate a description of how any lessons learned 
from the exercise have been incorporated into either the Department's, 
or your city's, day-to-day policy decisions, and the specific 
corrective actions you have undertaken to remedy any operational 
deficiencies.
    Finally, I am not convinced that the Department is taking full 
advantage of the exercise knowledge and expertise resident in a number 
of its components, such as FEMA and the Coast Guard. These agencies 
were conducting multi-agency, intergovernmental exercises long before 
the Department of Homeland Security was created. I recognize that the 
Office for Domestic Preparedness has been tasked with managing the 
National Exercise Program; however, DHS must begin the process of 
integrating the vast resources under its control to build the most 
effective programs.
    As you can see, I have many questions and concerns about the 
Department's exercise program. I hope that in addition to describing 
your experiences in the TOPOFF 2 exercise, you can directly address the 
questions I have raised. Thank you for being here, and I look forward 
to your testimony.

    Chairman Cox. Thank the gentleman.
    The Chair recognizes the Vice Chairwoman of the full 
committee, Jennifer Dunn of Washington.
    Ms. Dunn. Thank you very much, Mr. Chairman; and we are 
delighted that you are here with us today, panel. We look 
forward--having heard bits and pieces of what happens as a 
result of the analysis of TOPOFF--to seeing the big picture in 
your eyes.
    Mr. Chairman, we are especially lucky today to have a local 
official from my hometown and my State of Washington, Deputy 
Chief Clark Kimerer, who is number two at the Seattle Police 
Department, on this panel today; and he will bring a unique 
perspective because he was actually there on the ground in May 
of last year at the TOPOFF 2 exercise. He started at the 
Seattle Police Department in 1983 as an officer; and now, as 
Deputy Chief of Operations, he oversees the Investigation and 
Emergency Preparedness Bureau.
    Chief Kimerer, you recognize some of the people on this 
panel because some of them met with you when we were in town 
for a field hearing last fall; and we appreciate your coming 
back to Washington, D.C., to discuss with us again in more 
detail the perspective of those who were on the ground in 
Seattle the day of TOPOFF 2. We look forward to your testimony.
    With that, Mr. Chairman, I will yield back.
    Chairman Cox. I thank the gentlelady.
    Are there further opening statements?
    If not, I now ask unanimous consent that a video from the 
Department of Homeland Security be shown at this time. Without 
objection, so ordered.
    [Video played.]
    Chairman Cox. That video, of course, reflects what we 
actually conducted as an exercise during TOPOFF 2. It was I 
think quite clearly prepared by the Department of Homeland 
Security and sets the stage for the testimony of our next 
witnesses by providing a visual representation of how exercises 
are designed and conducted.
    We will now hear testimony from our three witnesses; and I 
want to remind our witnesses that, under our committee rules, 
they should strive to limit their opening remarks to 5 minutes. 
Each witness's entire written statement, at full length, will 
appear in the record. We will also allow the entire panel to 
testify before the questioning of any witness.
    Chairman Cox. The Chair now recognizes our first witness, 
Ms. Suzanne Mencer, Executive Director of the Office for State 
and Local Government Coordination and Preparedness of the 
Department of Homeland Security. Miss Mencer, welcome.

                 STATEMENT OF C. SUZANNE MENCER

    Ms. Mencer. Thank you very much, Chairman Cox. I appreciate 
the opportunity to be here today.
    It is certainly my pleasure, on behalf of Secretary Ridge, 
to talk about our homeland security exercise programs. I want 
to thank you, Mr. Chairman, and all the members of this 
committee for your ongoing support for the Department of 
Homeland Security, for the Office for Domestic Preparedness and 
for the new consolidated Office of State and Local Government 
Coordination and Preparedness. Congress has long been a 
champion of rigorous exercise programs as an important 
contributor to our Nation's preparedness, and made early and 
critical investments in what have today become very highly 
successful programs.
    Over the past 6 years, SLGCP, which is our very long 
acronym, has supported nearly 400 exercises. We conduct these 
exercises in the firm belief that they are a cornerstone of 
preparedness. Our experience and data show that exercises are a 
practical, efficient and cost-effective way to prepare for 
crises. They test our resilience, identify procedural 
difficulties and provide a plan for corrective actions without 
the penalties that might be incurred in a real crisis. Short of 
an actual incident, exercises provide the ``final test'' for 
our preparedness.
    SLGCP provides exercise support through its Homeland 
Security Exercise and Evaluation Program. Through this program, 
SLGCP State exercise managers and support teams work with 
States, Territories and designated urban areas to help 
establish exercise programs and develop a multi-year exercise 
schedule. On average, States plan about 20 exercises a year.
    In addition, as you know, Mr. Chairman, at the direction of 
Congress, SLGCP has conducted two Top Officials, or TOPOFF, 
national exercises that involved the participation of all key 
personnel who would participate in an actual terrorist event. 
The first exercise in May 2000 was, at the time, the largest 
counterterrorism exercise ever conducted in the United States, 
with over 6,000 participants. The States of New Hampshire and 
Colorado served as our pioneer venues.
    Then, last year, just 2 months after the Department of 
Homeland Security was established, Secretary Ridge personally 
led his team and the Nation through a week-long TOPOFF 2 full-
scale exercise. Sixteen major exercise activities were 
conducted in the States of Washington and Illinois for 103 
Federal, State, local and international departments and 
agencies. These exercises involved 20,000 domestic and 
international participants, including senior U.S. and Canadian 
government officials.
    Following TOPOFF 2, Secretary Ridge directed my office to 
develop a comprehensive national homeland security exercise 
program. Congress has provided the resources necessary to build 
a program that will ensure that the homeland security community 
is trained, practiced and able to perform its assigned homeland 
security missions.
    Implementation of this program is well under way, including 
the design and development of a third TOPOFF exercise. TOPOFF 
3, which will involve the States of New Jersey and Connecticut 
and the governments of the United Kingdom and Canada, promises 
to be the largest, most productive exercise ever conducted by 
the United States and its allies.
    In addition to direct exercise support, we have also worked 
with our Federal, State and local partners to develop exercise 
policy and doctrine. We have produced a series of manuals and 
compiled hundreds of exercise references that are available 
through a secure but unclassified Web portal we established for 
the homeland security community. We have been hard at work 
evaluating models, simulations and games to identify products 
that meet training and exercise needs when large-scale 
exercises are impractical, and to augment and extend existing 
programs; and we have established a national network of lessons 
learned and best practices for emergency response providers and 
homeland security officials. All this information is available 
through the secure but unclassified Web portal that we 
established for our homeland security community.
    In closing, I would like to provide just one illustration 
of the value of exercises to our Nation's preparedness. On the 
morning of September 11, 2001, one of our exercise teams was in 
New York City, preparing to assist Mayor Giuliani and his team 
to conduct a full-scale bioterrorism exercise that was 
scheduled for the next day. This exercise would have involved 
upwards of 700 police officers and firefighters. On September 
11th, when the City's emergency operations center went down in 
the World Trade Center attack, the exercise venue, Pier 92, 
became the response and recovery nerve center. Mayor Giuliani 
later described what a robust exercise program meant to the 
City. ``We did not anticipate'', he said, ``that airliners 
would be commandeered and turned into guided missiles. But the 
fact that we practiced for other kinds of disasters made us far 
more prepared to handle a catastrophe that nobody envisioned.''
    Let me restate the strong commitment of both Secretary 
Ridge and myself to the support of exercises as a cornerstone 
of America's homeland security preparedness. We look forward to 
continuing to work with you, Mr. Chairman, and members of this 
committee and Congress, to insure that our Nation's first 
responders are fully prepared to protect our home towns and our 
homeland.
    This concludes my statement, and I will be happy to respond 
to any questions that you or members the committee might have. 
And I did bring along Corey Gruber, who was the voice of a lot 
of that video, who lived through both TOPOFF exercises and is 
here to talk about it. Thank you very much.
    Chairman Cox. Thank you very much.
    [The statement of Ms. Mencer follows:]

                Prepared Statement of C. Suzanne Mencer

    Chairman Cox, Congressman Turner, and Members of the Committee, my 
name is Sue Mencer, and I serve as Director of the Department of 
Homeland Security's (DHS) Office for State and Local Government 
Coordination and Preparedness (SLGCP). On behalf of Secretary Ridge, it 
is my pleasure to appear before you today to discuss our homeland 
security exercise programs.
    I want to thank you, Mr. Chairman, and all the members of the 
Committee, for your ongoing support for the Department and for SLGCP. 
Congress has long been a champion of rigorous exercise programs as an 
important contributor to our nation's preparedness, and made early and 
critical investments in what have become today's highly successful 
programs. You and your colleagues have entrusted us with a great 
responsibility in administering these efforts for the nation, and we 
are meeting that charge with the utmost diligence.
    Mr. Chairman, since its creation in 1998, the Office for Domestic 
Preparedness (ODP), now consolidated with the Office of State and Local 
Government Coordination as the Office of State and Local Government 
Coordination and Preparedness (SLGCP), has provided assistance through 
its preparedness programs to all 50 States, the District of Columbia, 
the Commonwealth of Puerto Rico, and the U.S. territories. By the end 
of Fiscal Year 2004, SLGCP will have provided States and localities 
with more than $8.1 billion in assistance and direct support, trained 
550,000 emergency responders from more than 5,000 jurisdictions and 
directly supported nearly 400 exercises.
    We conduct these exercises in the firm belief that they are a 
cornerstone of preparedness. Our experience and data show that 
exercises are a practical, efficient, and cost-effective way to prepare 
for crises. They test our resilience, identify procedural difficulties, 
and provide a plan for corrective actions to improve capabilities 
without the penalties that might be incurred in a real crisis. They are 
a tangible measure of accountability in the repetitive cycle of 
planning, training, exercising, and assessing our homeland security 
capabilities. Short of an actual incident, they provide the "final 
test" for our preparedness.
    Congress has played a critical role in laying the foundation for 
our current programs. In 1996, Congress authorized the Nunn-Lugar-
Domenici Domestic Preparedness Program, an unprecedented undertaking 
which provided training, equipment, technical assistance and exercises 
focused on the threat posed by weapons of mass destruction to 120 of 
the nation's largest urban areas. This effort was initially 
administered by the Department of Defense and subsequently transferred 
to our Office. Each city received direct support in the design, 
development, conduct and evaluation of a series of three exercises, 
including a full-scale (or field) exercise. This Program was the 
forerunner for many of our current initiatives.
    Today, SLGCP has organized exercise support for States and 
communities into Eastern, Central, and Western Regions through its 
Homeland Security Exercise and Evaluation Program. States are required 
to adopt the Program for exercises conducted with Federal grant funds. 
State Exercise Managers and support teams are assigned to each Region. 
Exercise Managers conduct Exercise Planning Workshops with States, 
Territories, and designated urban areas to aid in program establishment 
and development of a multi-year exercise schedule. On average, states 
have planned twenty annual exercises.
    Congress has also led the establishment of exercise programs for 
our nation's leaders. In 1999 Congress directed that a Top Officials 
(``TOPOFF'') National Exercise be conducted with the participation ``of 
all key personnel who would participate in an actual terrorist event.'' 
The first TOPOFF, a full-scale exercise in May 2000 was, at the time, 
the largest combating terrorism exercise ever conducted in the United 
States. Over 6,000 participants from federal, state and local 
departments and agencies, including Cabinet officials participated. The 
States of New Hampshire and Colorado served as our pioneer venues for 
the first TOPOFF exercise.
    Again thanks to Congress, the second TOPOFF was a tremendous 
advancement. We were provided with additional funding so we could 
design and conduct a full two-year cycle of exercise activities of 
increasing complexity. Sixteen major exercise activities were conducted 
for 103 Federal, State, local and international departments and 
agencies and 20,000 domestic and international participants, including 
senior officials of the USG and Government of Canada. The States of 
Washington and Illinois were our full partners and provided our 
exercise venues. Through the use of distance learning methodologies, we 
were able to broadcast elements of the exercise series to audiences 
across the nation. Secretary Ridge personally led his team and the 
nation through the week-long TOPOFF 2 full-scale exercise just two 
months after the Department of Homeland Security was established. This 
proved to be an invaluable opportunity for the Department and its 
partners across government to train key personnel in their new homeland 
security roles and responsibilities.
    Following TOPOFF 2, Secretary Ridge directed my Office to develop a 
comprehensive national homeland security exercise program. Congress 
provided the resources necessary to build a Program that will ensure 
the homeland security community is trained, practiced and able to 
perform its assigned homeland security missions. We worked with our 
partners across government to develop a Program with four principal 
objectives: (1) To provide senior officials and their organizations 
with the opportunity to periodically train and exercise together, 
identify key policy issues, and refine key incident management 
processes/procedures against the range of probable threats; (2) To 
develop common doctrine and provide annual program planning guidance; 
(3) To establish collaborative management processes, supporting 
systems, and multi-year scheduling; and (4) To formalize a system for 
collecting, reporting, analyzing, interpreting, and disseminating 
qualitative as well as quantitative exercise lessons and exemplary 
practices.
    The importance of a nationally integrated program was reinforced 
when the President issued Homeland Security Presidential Directive/
HSPD-8, ``National Preparedness,'' in December of last year. HSPD-8 
confirmed the requirement to establish a national program. Our National 
Exercise Program, including the TOPOFF exercise series, will support 
implementation of the National Response Plan and National Incident 
Management System, and the provisions of HSPD-5, issued in February 
2003.
    Program implementation is well underway, including design and 
development of the third in the series of TOPOFF exercises. New Jersey 
and Connecticut will be our host venues, and Washington and Illinois, 
our partners in TOPOFF 2, will serve as their mentors. We will shortly 
announce the venues for TOPOFF 4, and those States will be invited to 
monitor the design, development, conduct and evaluation of TOPOFF 3. 
This mentoring program is designed to transfer knowledge and experience 
among multiple States and communities by leveraging national-level 
exercise participation. In addition, the Governments of the United 
Kingdom and Canada have committed to participation in what promises to 
be the largest, and surely the most productive exercise series ever 
conducted by the United States Government and its allies
    To unify homeland security exercise efforts, we have worked 
diligently with our federal, state and local partners to develop 
exercise policy and doctrine. We have produced a series of manuals that 
are employed by our State and local clients, and have been adopted for 
use by several Federal departments and agencies. These manuals and 
hundreds of exercise references are available through a secure but 
unclassified web portal we established for the homeland security 
community. This portal helps us realize our goal of maximizing the 
reuse of exercise investments and products, and in reducing the man-
hours required to design and develop exercises. The portal is utilized 
by thousands of federal, state and local exercise planners, and 
provides them with the tools and references that accelerate exercise 
design and development and dramatically enhance our ability to share 
information, including lessons and best practices. Our success with the 
portal has led us to use it as a collaborative workspace for many other 
preparedness initiatives.
    To meet the needs of the millions of first responders that must 
periodically train and exercise together on key action procedures, we 
have been hard at work examining and evaluating models, simulations, 
and games to identify products that meet federal, state, and local 
training and exercise needs when large-scale exercises are impractical, 
and to augment and extend existing programs. The potential benefits 
include increased training and exercise frequency, delivery, realism, 
and lower costs. Two reports commissioned by my Office reviewed nearly 
100 models, simulations and games, and these reports are available to 
federal, state and local users of our Secure Portal.
    The real value of exercises--and a difficult challenge--is in the 
identification and correction of weaknesses in our performance. We have 
established a national network of Lessons Learned and Best Practices 
for emergency response providers and homeland security officials. This 
``Lessons Learned Information Sharing'' system was developed by our 
partners at the Oklahoma Memorial Institute for the Prevention of 
Terrorism, is hosted on our secure but unclassified web portal, and is 
designed to share information necessary to prevent and respond to acts 
of terrorism across all disciplines and communities throughout the 
United States. All users are verified emergency response providers and 
homeland security officials at the local, state, and federal levels. We 
employ strong encryption and active site monitoring to protect all 
information housed on the system. Most importantly, the content is 
validated by homeland security professionals for their peers. The site 
also houses an extensive catalog of after-action reports from exercises 
and actual incidents as well as an updated list of homeland security 
exercises, events, and conferences.
    Today's multimedia presentation will complete the portrait of the 
homeland security community's exercise efforts at every level of 
government--efforts that improve with every exercise. Your committee's 
support of these programs contributes to our readiness every day across 
this great nation.
    In closing, I'd like to offer a premier illustration of the value 
of exercises to our nation's preparedness. In 1997, New York City began 
a rigorous series of exercises focused on the terrorist threat. Our 
office, along with other federal partners, was privileged to assist in 
these efforts. On the morning of September 11th, 2001, one of our 
exercise teams was in New York City preparing to assist Mayor Guiliani 
and his team in conduct of a full-scale bioterrorism exercise scheduled 
for September 12th. This exercise would have involved upwards of 700 
police officers and firefighters. The exercise venue, Pier 92, became 
the alternate City emergency operations center when Tower 7 of the 
Trade Center was made untenable by the attack. Mayor Guiliani later 
described what a robust exercise program meant to the City: ``We did 
not anticipate that airliners would be commandeered and turned into 
guided missiles; but the fact that we practiced for other kinds of 
disasters made us far more prepared to handle a catastrophe that nobody 
envisioned.''
    Let me re-state Secretary Ridge's and my commitment to exercises as 
a cornerstone of America's homeland security preparedness. There are no 
stronger proponents than the President and the Secretary for the 
utility and versatility of exercises in improving domestic incident 
management. This concludes my statement. I will be happy to respond to 
any questions that you and the members of the Committee may have 
following our multimedia presentation. Thank you.
    [Chart follows:]
    [GRAPHIC] [TIFF OMITTED] 24773.001
    
    [GRAPHIC] [TIFF OMITTED] 24773.002
    
    [GRAPHIC] [TIFF OMITTED] 24773.003
    
    [GRAPHIC] [TIFF OMITTED] 24773.004
    
    [GRAPHIC] [TIFF OMITTED] 24773.005
    

    Chairman Cox. I want at this point to welcome and introduce 
also Mr. Clark Gruber, who is--or, pardon me, Corey Gruber. 
Clark, I am getting you confused here--Corey Gruber, who is the 
Associate Director of the Office for Domestic Preparedness at 
the Department of Homeland Security. We understand that you are 
not going to present formal testimony but would be pleased to 
respond to members' questions.
    At this time, I would like to introduce Clark Kimerer, who 
is the Deputy Chief of Operations for the Seattle Police 
Department.

                 STATEMENT OF CLARK S. KIMERER

    Mr. Kimerer. Mr. Chairman, distinguished members of the 
select committee on Homeland Security, thank you for inviting 
me to speak with you today. Washington State is proud to have 
two Congress people serving on this important committee, 
Congresswoman Jennifer Dunn and Congressman Norm Dicks. We 
appreciate your continued support to look after the Homeland 
Security needs of the City of Seattle and of the State of 
Washington.
    It is an honor for me to be asked to share with you my 
reflections on the TOPOFF exercise series. It is particularly 
gratifying to note your commendable interest in the 
observations of a local police professional. We must never lose 
sight of the fact that, for most Americans, their homeland is 
defined as the specific geography where they live and work, 
raise their kids, go to school and enjoy their friends, their 
family and their leisure.
    On May 12 of last year, the City of Seattle was rocked by a 
detonation of a radiological dispersal device, otherwise known 
as a dirty bomb, exploded by international terrorist 
operatives, creating a mass casualty crisis. For the whole of 
this 36-hour continuous crisis, City of Seattle Mayor Greg 
Nickels, Police Chief Gil Kerlikowske, the Fire Chief, and the 
head of public health presided over the City's Emergency 
Operations Center and provided continuous communication and 
engagement with the citizens of Seattle via the media. The 
entire architecture of the Federal response under the 
Department of Homeland Security was shoulder to shoulder with 
us during this event.
    Of course, what I have just recounted was the 
congressionally conceived TOPOFF 2 exercise. No one was 
actually hurt or killed, the terrorist cell did not actually 
penetrate our defenses and harm our citizens, and at the 
conclusion of the exercise we went about the invaluable 
enterprise of analysis and improvement, rather than the tragic 
activity of mourning.
    My observations today about TOPOFF 2 will be decidedly 
local and influenced by police officer sensibility. If asked to 
characterize my perspective, I will describe it as coming from 
the lofty vantage of being at ground level.
    Why was this exercise so important and, in my estimation, 
so successful? Its value for me is measured in four basic 
dimensions.
    First, an exercise tests and contributes to the evolution 
of doctrine, policies and plans. It is one thing to develop 
plans and policies as a matter of academic abstraction. It is 
quite another to test them in the real world, take real time 
movements of people on the ground. When all of this is set in 
motion, our doctrines and policies will be thoroughly tested 
and, as a consequence, will grow in clarity and precision. The 
TOPOFF 2 exercise series helped illuminate these critical 
needs, and together we have worked diligently to address them.
    The Department of Homeland Security's recent work on the 
National Incident Management System, or NIMS, is right on point 
to address the major deficiencies we identified in TOPOFF 2. 
But I want to emphasize again that we are only as good as we 
are clear and precise in our doctrines and policies, and 
exercises help us attain that clarity and precision.
    Second, an exercise provides an opportunity for the 
practical development of technical skills and expertise. Every 
one of the officers, firefighters, emergency room nurses and 
doctors, public health workers and the myriad others who were 
deployed during TOPOFF 2 gained real-world experience and 
practice in dealing with a crisis whose reach exceeded our 
grasp. This included real-world fatigue, real-world mandates to 
be innovative and creative, real-world mistakes. This is the 
gold standard of exercises. But we could not have undertaken it 
were it not for the financial support that enabled us to stage 
this exercise.
    We have day jobs, 850,000 calls a year. We cannot take 
officers off the street to train them. It has to be off duty. 
So for us the TOPOFF series and, more to the point I am going 
to make next, the UASI grant process is invaluable. It is truly 
a Godsend.
    I want to comment on UASI at this juncture. My observation 
is very straightforward. The UASI grant process has been vital 
to our jurisdictions, our local, state and regional 
jurisdictions. Without UASI support, cities like Seattle would 
be literally unable to equip, train and provide technological 
support to our first responders.
    But we are approaching a point in the evolution of the UASI 
process where the limitations and prohibition regarding the 
hiring of full-time equivalents or personnel is becoming a 
critical priority of many chiefs. You see, in addition to 
technology, equipment and training, the capital and commodity 
we need most is people. We need to have the flexibility to 
invest in the most important capital asset of all, namely 
personnel.
    Third, exercises in general and TOPOFF in particular 
provide--indeed require--a comprehensive after action 
assessment and evaluation process and report. This transforms 
our localized experience into an enduring, relevant and 
universal benefit that we can share among all of our first 
responder agencies at all levels of government. The Department 
of Homeland Security--and my friend, Corey Gruber--calls this 
``bankable learning.''
    I propose that the key planners and players responsible for 
our exercises should have the chance to regularly convene with 
the exercise evaluators and assessors in an attempt to measure 
the growth of policy and strategy and in turn contribute to the 
national discussion and our collective expertise to prevent and 
respond to acts of terror.
    Fourth, finally, and most important, an exercise like 
TOPOFF builds relationships and creates lines of communication. 
Our discussions around TOPOFF were candid, honest, open and 
productive. Now I know who to call, and the voice in 
Washington, D.C., is likely someone with whom I have 
established a professional relationship and vice versa. In my 
view, this is one of the most profound benefits of committing 
to any multijurisdictional exercise and TOPOFF 2 specifically.
    I will close with one final thought. I contend that for any 
of these programs and initiatives to be successful they need to 
be designed and managed in large measure by the State and local 
first responders and active law enforcement, fire and police 
professionals who will use them. It is tempting but I believe 
misguided to look inside the Beltway for decisions that affect 
Seattle or Austin or Miami. Secretary Ridge, I know, shares 
this value. We are on track to make it a reality. But people 
like me need to constantly remind those that have much too much 
work to do of the importance of the local perspective in the 
design of our national strategy for response.
    It has been an honor and a privilege for me to be able to 
share these observations with the committee. We are all part of 
the same coalition of concern and dedication, and together I 
know we will protect the citizens we serve and the freedoms 
that define our Nation. Thank you.
    Chairman Cox. Thank you, Chief Kimerer.
    [The statement of Mr. Kimerer follows:]

                 Prepared Statement of Clark S. Kimerer

    Mr. Chairman, Ranking Member Turner, Distinguished Members of the 
Select Committee on Homeland Security, thank you for inviting me to 
speak with you today. Washington State is proud to have two members 
serving on this important committee--Congresswoman Jennifer Dunn and 
Congressman Norm Dicks. We appreciate their continued attention to the 
homeland security needs of the City of Seattle and the residents of the 
State of Washington.
    On May 12th of last year, the City of Seattle was rocked by the 
detonation of a radiological dispersal device, otherwise known as a 
``dirty bomb'', exploded by international terrorist operatives, 
creating a mass casualty situation, a plume of radioactive debris 
enshrouding a significant part of Seattle's civic center, and the 
contamination of police and firefighters who, with willful disregard 
for their own safety, rushed into this scene of destruction to care for 
the injured. For the next 36 hours, over 3700 men and women from 
Seattle, King County, the State of Washington, the Department of 
Homeland Security, the FBI, FEMA, the nation of Canada, local and 
national departments of public health, the academic community, and many 
others--including our partners from the private sector--worked together 
to contain and neutralize the damage; rescue, triage, decontaminate and 
treat victims; investigate the crime scene; and reassure a shaken 
public that we were doing everything possible to protect their sacred 
interests: Their own security and safety, that of their children and 
loved ones, and--at the same time--the freedoms that define this 
nation.
    For the whole of this 36-hour crisis, City of Seattle Mayor Greg 
Nickels presided over the city's Emergency Operations Center, and 
provided continuous communication and engagement with the citizens of 
Seattle via the media. The Chief of Police, the Fire Chief, the 
Director of Public Health, the Director of FEMA Region 10, and the 
Department of Homeland Security Principal Federal Official (PFO), among 
others, worked in support of the Mayor to address the crisis. At the 
same time, nearly identical scenarios were being played out in the 
office of the King County Executive, and in the office of the Governor 
of the State of Washington. In Vancouver, British Columbia and the 
capital city of Ottawa, top officials from Canada worked to both 
protect the interests of their citizens, as well as offer assistance to 
the US. Then, in the midst of our crisis, a second attack was launched. 
Twenty-four hours into our response to the explosion in Seattle, the 
same terrorist group released tpneumonic plague bacillus in Illinois, 
infecting citizens in Chicago and its five surrounding counties. As in 
Seattle, the Mayor of Chicago, the executives of the impacted counties, 
the Governor of the State of Illinois, and the Department of Homeland 
Security worked together to address the crisis unfolding before them. 
And, finally, here in the other Washington, the response and support 
architecture of the Federal government, under the organizational 
structure of the Department of Homeland Security, was engaged and 
operational during the whole of the Seattle and Illinois crises. I have 
it on good authority that the Secretary got about as much sleep as the 
rest of us during the second week of May, 2003.
    Of course, what I have just recounted was the congressionally 
conceived TOPOFF 2 exercise. No one was actually hurt or killed. The 
terrorist cell did not actually penetrate our defenses and harm our 
citizens. And at the conclusion of the exercise, we went about the 
invaluable enterprise of analysis and improvement, rather than the 
tragic activity of mourning.
    It is an honor and privilege to be asked to share with you my 
reflections on the TOPOFF exercise series, as well as the value of 
exercising terrorism scenarios generally. It is particularly gratifying 
to note your commendable interest in the analysis and observations of 
local police, fire and emergency services professionals. I know this 
commitment is shared as a priority by the Secretary. We are, after all, 
the first responders to virtually every disaster and emergency either 
presented by nature, or conceived by the malignant misuse of the human 
intellect. The impressive machine of Federal support almost invariably 
follows the efforts of local, regional and state response. Local 
police, fire, public health and emergency services workers are and 
always will remain the first to respond and the last to leave. We do 
not have a national police force, like Canada, nor even a unified, 
governing jurisdictional construct like Great Britain. Our nation 
defines itself by local, community-based governance, particularly as 
concerns police and emergency services. In times of crisis, our 
citizens look for aid and reassurance from the President and Congress, 
and at the same time, to their elected Mayor, local police and fire 
chiefs, County Executive, and Governor. As we design exercises to 
improve our capacity to respond to terrorism, as we develop and refine 
homeland security doctrine to define essential responses and actions, 
we must never lose sight of the fact that most Americans define their 
``homeland'' as--first and foremost--the specific geography where they 
live and work, raise their kids, go to school, and enjoy their friends, 
family and leisure.
    The balance of my comments will be my reflections on key lessons 
learned from TOPOFF 2; the profound value of exercises generally, both 
large and small; and, finally, what we need to build on based upon the 
insights gleaned from TOPOFF and other recent scenarios and 
simulations. I will also explore with you two related issues of great 
concern to my colleagues in the Major Cities, namely the need to have 
the latitude to hire personnel, and to keep focused upon threat-based 
assessments at the municipal and regional first responder level. My 
observations will be decidedly local and influenced by a police 
officer's sensibility. If asked to characterize my perspective, I would 
describe it as ``low altitude,'' or--more to the point--generated from 
the lofty vantage of being at ground level.
    Perhaps the most immediate and significant characteristic of the 
TOPOFF 2 exercise is symbolized by its very name: TOPOFF, which is 
shorthand for Top Officials. A few moments ago, I described that during 
the TOPOFF field exercise in May 2003, we saw the total engagement and 
focused participation of Seattle Mayor Nickels, the King County 
Executive, Washington Governor Locke, Mayor Daley, the elected 
Executives representing five counties surrounding Chicago, the Governor 
of Illinois, top officials in Canada, Secretary Ridge and the whole of 
the leadership of DHS, members of the Cabinet, and the office of the 
President himself. I know that members of Congress, and this committee 
in particular, were part of this unparalleled coalition of engagement 
and concern. This level of exercise play was truly groundbreaking, both 
as an opportunity for evaluation and assessment of our gaps and needs, 
as well as for its statement of the commitment we have made to the war 
against terrorism.
    Why was this exercise so important and, in my estimation, so 
successful? I contend that exercises of any scale--from the monumental, 
like TOPOFF 2 and the upcoming TOPOFF 3, to the focused and specific, 
like a 4-hour tabletop scenario--are immensely valuable. Their value is 
measured in four basic dimensions:
    First, an exercise tests and contributes to the evolution of 
doctrine, policies and plans. It is one thing to develop a vision of 
crisis and consequence management as a matter of academic abstraction; 
it is quite another to test doctrine and policies in real world, real 
time movement of people on the ground. Every time we individually or 
nationally undertake a field exercise, we have an opportunity to re-
think and further clarify our basic principles. What is the role of a 
national alert system? What is the priority of the Incident Command 
System for first responders? Where do jurisdictions begin and end? What 
is the role of the private sector and business community in both crisis 
and consequence management? How do we organize joint public 
information, crisis communications, and who is the messenger? Who 
leads, who follows, who facilitates? During TOPOFF 2, over eight 
hundred Seattle firefighters and police officers moved on the ground 
for 36 continuous hours to rescue the injured, evaluate and contain the 
damage, extricate victims from collapsed structures, implement Incident 
Command, establish interoperable communications, investigate the crime, 
reassure the public, coordinate the integration of local, state and 
federal emergency services leaders; when all of this is set in motion, 
our doctrines and policies will be thoroughly tested, and, as a 
consequence, will grow in clarity and evolve in precision.
    In TOPOFF 2, it became clear that we have more work to do to 
further clarify our national, state and local doctrines. From my 
perspective, we need to use exercises like TOPOFF 2 to unify first 
responders in applying the Incident Command System, or ICS.
    We need to clearly articulate our focus upon local, regional and 
state capacities, based upon threat assessment, population densities, 
and critical infrastructure. We need to practice the integration of 
mutual aid, and the arrival of federal support and coordination into 
field command and command post operations. We need to have a precise 
and efficient organization for public information, joint crisis 
communications, with due regard for the jurisdictional responsibilities 
of the elected leaders of impacted communities.
    The TOPOFF 2 exercise helped illuminate these critical needs, and 
together we have worked diligently to address them. The Department of 
Homeland Security's work on the National Incident Management System (or 
NIMS), the Homeland Security Exercise and Evaluation Program (HSEEP), 
HSPD 5 and 8, the National Response Plan, and the recent Universal Task 
List work group that I sit on, are right on point to address the gaps 
and needs illuminated by TOPOFF 2. And in TOPOFF 3, all of these 
lessons learned have been integrated into the design of the next set of 
scenarios. I have the privilege of being one of the TOPOFF 3 mentors, 
and am solidly impressed by the design of the upcoming exercise series. 
But I want to emphasize that we are only as good as we are clear and 
precise in doctrine and policy, and we must create a sustainable 
process of learning to hone and refine our doctrinal principles and 
priorities. I believe that Aristotle captured this mandate: If you 
really know something, you can say it, and say it clearly and 
precisely. Exercises immensely help us to this end.
    Second, an exercise provides and opportunity for the practical 
development of technical skills and expertise. In some ways, this is 
self-evident. Every one of the officers, firefighters, emergency room 
nurses and doctors, public health workers, ambulance technicians, 
utility and public works professionals, and the myriad others deployed 
during TOPOFF 2 gained real world experience and practice in dealing 
with a crisis whose reach exceeded our grasp. This included real world 
fatigue, real world mandates to be flexible and innovative, and real 
world mistakes. Many of the TOPOFF 2 participants in Seattle were at 
the beginning of 20--and 30-year careers. Imagine a long tenure in 
emergency services marked by progressively more difficult and complex 
exposure to scenarios, played out in times of calm, and with the 
opportunity for reflection and improvement. This is our gold standard. 
But it is near impossible for most municipal, county or state fire or 
police agencies--including Seattle--to undertake a major exercise and 
meets its day-to-day requirements for emergency response. Were it not 
for the financial support we received to stage TOPOFF 2, we could not 
have taken resources away from the street and 911 responsibilities. 
Consider this: In Seattle last year, the police department responded to 
850,000 911 calls. A quarter million of these calls required one, two 
or multiple police officers to physically respond. On top of that, 
these same police officers self-initiated stops, arrests or other 
official actions 170,000 times. Over 20,000 adults and juveniles were 
arrested and booked into jail, and another 6500 were cited or summoned. 
On the one hand, it is precisely this day-to-day experience that makes 
the local jurisdictions expert in first response and emergency 
management. We do it all the time. What better resource to help define 
the national doctrine, strategy and exercise plan. But on the other 
hand, it is precisely this burden of work that precludes us from being 
able to create a TOPOFF 2 on our own. When we train, it is almost 
always during off-duty times, resulting in overtime and other 
exceptional financial and personnel impacts. But, in the view of this 
operations chief and 20-year veteran of policing, it is worth every 
penny.
    It is appropriate at this juncture to comment on the UASI grant 
process. My observation is very straightforward. The UASI grant process 
has been vital. Without UASI support, cities like Seattle would have 
unable to equip, train and provide technological support to our first 
responders. It would have taken us ten years to approach a percentage 
of the progress we have made under UASI in just the last 12 months. 
This progress has all been in areas directly supportive of our mission 
to prevent, detect, deter and mitigate acts of terrorism, specifically 
personal protective and detection equipment, maritime, port and 
transportation protection, interoperable communications, and other 
programs that protect our citizens. We are fast approaching a point in 
the evolution of the UASI process that many chiefs and elected 
officials around the county are confronting:
    The limitations and prohibitions on hiring FTEs from grant sources 
like UASI is becoming a priority concern, for this reason: In addition 
to technology equipment and training, the capital and commodity we are 
most in need of is people. Expert, dedicated, competent people to 
assist us in planning, intelligence, technical and scientific 
processes, computer and communications technology--including the 
emerging threat of cyber terrorism--and, quite simply, to help us 
manage the equipment and systems we are receiving from the UASI 
process. We know the difficulties that inhere in grant funding 
personnel positions. We know that creating an on-going obligation for 
staff beyond the life of a grant is problematic. But I am confident 
that there is a middle ground, and that we can structure positions that 
have set terms and sunset provisions to meet our need to have the 
flexibility to invest in the most important capital asset of all, 
namely personnel.
    Third, exercises in general and TOPOFF in particular provide--
indeed, require--a comprehensive after action assessment and evaluation 
process and report. We call these ``lessons learned,'' and, in a real 
sense, this process may be the reason to undertake an exercise in the 
first place. As I mentioned above, TOPOFF 2 provided an opportunity to 
test and refine our doctrines and policies, and explore real world, 
practical deployments with our regional, state and federal partners as 
we jointly confronted a series of devastating terrorist attacks. But 
what transforms our localized experience into an enduring, relevant and 
universal benefit is the sharing of our insights in a sustainable and 
secure system that can be accessed by all police, fire and emergency 
services professionals. The Department of Homeland Security has called 
this ``bankable learning.'' The process of integrating the architecture 
of data collection, evaluation and assessment and sharing of lessons 
learned must begin at the same time an exercise is conceived. This did 
not happen in TOPOFF 2; it is a principle component of TOPOFF 3. I 
commend DHS for their resolve to take this key element of exercise 
management and elevating its priority for future scenarios. In the end, 
this is the basic reason to commit to the expense, risk and personnel 
impacts of an exercise at all: To grow, improve, evolve and share 
insights to benefit all emergency workers, in the same manner that a 
rising tide lifts all boats.
    For my part, I believe we have more work to do in evaluating the 
TOPOFF 2 experience. I would like to see an after action process that 
regularly revisits and provides opportunity for thoroughgoing follow-up 
on the lessons we learned. One year, two years, even five years 
following an exercise like TOPOFF should be the occasions to 
systematically compare our insights against changes in policy, 
doctrine, first response, consequence management, and training. The key 
leaders and planners responsible for an exercise should have the chance 
to convene with the exercise evaluators and assessors, in an attempt to 
measure the growth of policy and strategy, and in turn, contribute to 
the national discussion and our collective expertise to prevent and 
respond to acts of terror and disasters generally. This is truly 
``bankable learning,'' and is a priority I know we share with the 
Department of Homeland Security.
    Fourth, finally, and most important, an exercise like TOPOFF builds 
relationships and creates lines of communication. In the end, it really 
is all about relationships. In the year leading up to the Full Field 
Exercise, I participated in a series of TOPOFF seminars that explored 
public information, direction and control, management of an RDD and 
plague attack, jurisdictional responsibilities and prerogatives; in 
short, the whole gamut of response challenges that will be present in 
the event of a real attack. These discussions were candid, honest, open 
and productive. The Department of Homeland Security heard from me and 
my colleagues that we will be successful in direct proportion to the 
level that local first responders are consulted and listened to; and I 
heard and saw that DHS was comprised of smart, dedicated people who 
were trying their best to address a huge task in a short time to thwart 
an implacable and malignant adversary (and listen to state and local 
jurisdictions at the same time) I remain impressed. I commend their 
efforts. And now, I know who to call, and the voice in Washington DC is 
likely someone with whom I have established a professional 
relationship. And vice versa. The exact dimensions of how important it 
is to create these relationships is difficult to quantify. In my view, 
this is one of the most profound benefits of committing to any multi-
jurisdictional exercise, and TOPOFF 2 specifically.
    Now, during the exercise itself, it wasn't always perfect. There 
were not a few false starts, though none that interfered with the work 
being done in the field. I found that the Principal Federal Official 
(PFO) system worked very well, and I was surprised and gratified to see 
a minimum of ``creeping jurisdictions'' at play. In the end, I believe 
that DHS was eminently respectful of the role of local government and 
its first responders, and tailored its role to support, assist, engage 
the federal system and its myriad responsibilities, and prepare for 
transitions of jurisdiction following the resolution of the mass 
casualty incident by Seattle police, fire and emergency services 
professionals.
    As we look ahead, I can conceptualize a roadmap based in part upon 
my previous comments. The first element is the continued support of 
exercises and scenarios at the federal, state and local level, with 
emphasis on interjurisdictional coordination and mutual aid. A 
progressive continuum of exercise formats and media--from elementary to 
highly advanced--should be our ultimate goal. The Department of 
Homeland Security is pursuing this objective with rigor and energy. 
Programs involving distance learning, computer-aided models, 
simulations and games, formats for tabletop, limited and full field 
exercises and specialized scenarios and topics--cyber terrorism being 
one example--would find a ready audience. At the heart of this 
curriculum, I believe, must be use of the incident command system. Now, 
returning to a central theme of my remarks, I contend that for any of 
these programs to be truly successful, they need to be designed and 
managed in large measure by the state and local first responders and 
active law enforcement and fire professionals who will use them. The 
second element, then, is a redoubled commitment to ensure that 
doctrine, policy and exercise design is a matter for state and local 
input and expertise. It is tempting to look inside the beltway for 
decisions that affect Seattle or Austin or Des Moines. Having said 
this, I know that the Secretary is committed to a full partnership with 
the many state and local experts who make up the first responder 
community. The third element is an expanded program of after-action 
analysis, appropriately secured but accessible to all professionals 
within the federal, state and local emergency response community. This 
program should include regular updates and opportunities for 
interaction with evaluators and assessors, and should ideally be 
presented in a standard format designed by the professionals who will 
use the information. The fourth element is to maximize the occasions 
for interaction at all levels, and to build relationships and lines of 
communication forged in times of calm, that will endure in times of 
crisis.
    It is an honor and a privilege for me to be able to share these 
observations with the committee. We are all a part of the same 
coalition of concern and dedication, and together I know that we will 
protect the citizens we serve, and the freedoms that define our nation

    Chairman Cox. Of course, whereas Seattle had to endure a 
radiological attack, the Chicago metropolitan area had to 
endure an attack of bubonic plague; and here to tell us about 
that is Tom Mefferd, who is the Director of the DuPage County 
Office of Homeland Security in the Chicago, Illinois, area. 
Welcome.

                 STATEMENT OF THOMAS O. MEFFERD

    Mr. Mefferd. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to discuss exercise 
issues with you as related to the TOPOFF exercise.
    As has been previously indicated, the State of Illinois and 
the State of Washington, the whole country, if you will, 
participated in the exercises a little over a year ago. While 
it would be real easy to spend some time talking in detail 
about that exercise, I would like to take a step backwards and 
talk about the whole picture that exercise plays or that 
exercising plays in the grander scale of emergency 
preparedness. Preparedness is one of the major functions that 
homeland security and emergency management is built on.
    There is a three-part process, a triangle, if you will, of 
planning, training and exercising; and each of those pieces 
have been mentioned in one way or the other here this 
afternoon. Planning is the foundation under which the whole 
process is built. Planning is the foundation, if you will, that 
allows us to be able to respond to a major emergency or 
disaster. Absent an emergency plan, we have nothing to train to 
and we have nothing to exercise, because we have not thought 
out who is going to do what at what level and how we are going 
to do it. It is critical that an emergency plan exist at the 
local level, at the State level and at the Federal regional 
level, as well as the headquarters level, that clearly 
indicates how we work together.
    There were numerous things that came up in the TOPOFF 
exercise that either required a decision to be made at a local 
level that directly impacted things that were happening here in 
Washington, or there was a decision made here in Washington 
that directly impacted things that happened at the local level. 
We must be able to understand, we must be able to know how our 
counterparts are functioning and thinking at every level of 
government, because as we continue to function in an emergency 
scenario we must work as a team.
    The development of the national response plan and, 
ultimately, NIMS will help us do that. But I caution you, just 
putting a document on the street will not solve the problem. 
The ultimate solution to this problem is the adoption, the 
training and the acceptance on the part of every State and 
every one of our localities of those systems. We must work 
together. We must work in unison if we are going to be able to 
function.
    As we look at the TOPOFF scenario and ultimately any 
terrorist incidents, it is critical again that we have a system 
that is robust, that we have a system that is clearly 
understood at every level of government; and that leads to the 
second part of the triangle, training. As part of TOPOFF, prior 
to the exercises, there was over a year of planning and 
training activities that led us to, ultimately, the skills 
necessary to perform the exercise. That training where we 
brought together local officials and county officials and State 
officials and Federal officials was invaluable.
    Again, it is critical that we all clearly understand how we 
relate to each other. Every person, every agency that has a 
role in the ultimate emergency plan must also participate in 
training if in fact we are to work as a team. Again, as a 
sports team, as any other team works, we must do the same in 
homeland security and emergency management.
    Finally, the third leg of that triangle, exercising. There 
are some basic concepts that I think we forget sometimes in the 
development of exercise, and that is the concept that we must 
crawl before we walk and we must walk before we run.
    In the same fashion, we look at exercising as 80 percent 
training and 20 percent testing. It is important that we 
understand clearly that when we go through an exercise, as we 
did in TOPOFF, that we will make mistakes, that we will 
identify those mistakes and work to solve the problems that 
were identified in the exercise. It is critical that we clearly 
understand that we don't rush out and just do the big 
phenomenal exercise but we also support all of the smaller 
exercises that led up to that. We did, I believe a total of six 
exercises in preparation for the ultimate TOPOFF exercise.
    Additionally, one of the fallacies in exercise design that 
I think we should be aware of is that we should not be afraid 
to make those mistakes. Understandably, if exercises are going 
to be a training environment, we are going to make mistakes 
that may potentially be made public. But those mistakes can be 
fixed through critique. They can be fixed through evaluation 
and planning and retraining.
    There are a number of other specifics, but let me move 
toward conclusion, to touch base on one final component, a 
critical component of the system, as Clark just indicated, with 
the UASI program. That part is personnel. It is critical that, 
as we look at the management infrastructure in this country 
that is responsible to make sure that we have the capability to 
respond not only to an exercise but a full-scale disaster, we 
have to start looking at other areas other than our first 
responders.
    Don't take that wrong. Our first responders have been 
focused as a major part of national attention since September 
11, and they need that continued support. We need to make sure 
our first responders are the best trained, best equipped and 
best prepared. But the issue is there needs to be the command 
and control system that stands behind those first responders 
that is prepared to make the decisions that are necessary.
    The emergency management community, the emergency managers 
themselves, our chief executive officers need to be trained. 
They need to be exercised, and they need to be supported. Our 
infrastructure in communications and interoperability and 
command and control facilities, emergency operating centers 
must be a priority.
    Again, as we look at the support systems for our personnel 
we need to clearly understand in the preparation for TOPOFF 
this was a year-plus activity that put significant strains on 
those agencies that participated. In our government alone, we 
had three full-time personnel, two in our public health 
community, one in my office, that initially were committed on a 
monthly basis to multiday meetings once a month. As we moved 
closer to the exercise, that was almost a full-time commitment. 
If an exercise can put that kind of a strain on a local 
government system, then what would a real emergency do? We need 
the availability of putting additional personnel into our 
command and control system, much as Clark has just indicated.
    In conclusion, again, let me state this. As we look at 
exercises, the benefit to our country, the benefit to our 
communities is immeasurable. Bringing folks together, talking 
together, planning together and working together, there is no 
way to measure that. It is a tremendous benefit.
    But again we must--we must from the Federal level down have 
a commitment to support the overall triangle--planning, 
training and exercising--as an entire package. The continued 
support of Congress, the continued support of the Department of 
Homeland Security is essential to all of us at the local level 
being able to effectively respond and manage a major crisis, 
especially the uniqueness that is there from a terrorism 
scenario. Thank you very much.
    Chairman Cox. Mr. Mefferd, thank you very much for your 
testimony.
    [The statement of Mr. Mefferd follows:]

                Prepared Statement of Thomas O. Mefferd

    By way of background, I have been involved in the emergency 
management field since 1971, serving at the municipal, township and 
county government levels. Additionally, I have served in the training 
and education divisions of both state and federal governments. During 
these thirty- three years, I have participated in or developed more 
than 100 exercises ranging from low-level table-top exercises to full-
scale exercises.
    A little more than one year ago the State of Illinois; City of 
Chicago and its surrounding counties of Cook, DuPage, Kane, and Lake; 
the State of Washington; City of Seattle and surrounding counties; and 
the federal governments of the United States and Canada participated in 
the most extensive counter-terrorism exercise ever held in this 
country. This exercise was designed to test the cooperative efforts of 
the local, state, and federal government in responding to, and 
ultimately recovering from, a multi-facetted terrorist attack on the 
country.
    At the outset it may appear appropriate to comment on and critique 
the exercise and its ultimate results. However, it is critical to 
clearly understand the role that exercising plays in the bigger picture 
of emergency preparedness. Preparedness includes three equal but 
interrelated components, including:
        <bullet> Planning
        <bullet> Training
        <bullet> Exercising
    Planning is the foundation on which the triangle rests. Absent an 
emergency plan, there is nothing on which to train and no organization 
to exercise. The key to an effective response and recovery system is 
the development of a comprehensive emergency plan that clearly 
identifies the roles and responsibilities of key departments, agencies, 
and officials, and various levels of government. More importantly, the 
roles, responsibilities, and authorities of all agencies that 
participate must be clearly defined. At the local level, where a mayor 
or county executive provides direct leadership to operating 
departments, the process of ``direction and control'' is relatively 
easy. The higher one looks in government, however, the more convoluted 
things become. With the large number of federal agencies, as well as 
the differences between regional and headquarters organizations, it is 
not always clear how certain decisions are made and how local 
implementation of those decisions occur.
    With the roll out of the new National Response Plan (NRP) and the 
National Incident Management System (NIMS), hopefully many gray areas 
will be eliminated. Critical, however, to the success of these plans 
will be their adoption and integration at the local and state levels.
    The following example, related to the Strategic National Stockpile, 
clearly illustrates how planning must be integrated at all levels of 
government.
        A terrorist organization covertly releases a biological agent 
        into a community. In a short period of time many citizens 
        become ill and begin to seek medical attention. At the local 
        level, emergency medical services (EMS) providers and health 
        care professionals attempt to render aid. Reporting 
        requirements at the local level alert county health officials 
        who realize that something is terribly wrong. Calls are placed 
        to state health officials who, in cooperation with county 
        officials begin medical surveillance. Notification of the 
        Centers for Disease Control follows. Working jointly, local, 
        state, and federal officials determine that a biological agent 
        has been released which requires the deployment of the 
        Strategic National Stockpile (SNS). CDC officials transport the 
        nearest push-pack to the state, who in turn receives the 
        package and distributes it to the stricken county. County and 
        municipal officials open medication dispensing sites and 
        provide prophylaxis to exposed individuals and are able to deal 
        with the crisis.
    Clearly this scenario identifies separate but interrelated roles 
for municipal, county, state, and federal governments. If any of these 
component pieces do not understand their role then other related 
components do not function, potentially leading to a loss of life, or 
at least significant levels of confusion. While this scenario focuses 
only on public health, consider the ramifications when areas of crisis 
communications, law enforcement investigations, and consequence 
management issues are added.
    The second but equally important part of the triangle is training. 
Once a plan or procedure has been developed, it is critical that 
everyone who will use the plan be instructed in how that plan is to 
function. This includes personnel at all levels of government. As can 
clearly be seen in the example above, there are key roles as well as 
major opportunities for failure at all levels of government. It is 
clear, then, that officials at every level of government clearly 
understand their role as well as those who function at levels both 
above and below them.
    The final part of the triangle is exercising. A mistake often made 
by exercise planners is that a full-scale exercise is the best way to 
test a plan or procedure. A guiding premise to exercise design is that 
you must be able to crawl before you walk, and walk before you run. 
Additionally, exercises can be viewed as 80% training and 20% testing. 
Therefore, lower level table-top and functional exercises should be a 
key part in any exercise program, where participants can ``walk 
through'' procedures and become trained in the proper method of dealing 
with an event. During the TOPOFF program, several lower level exercises 
were held to allow local, state, and federal agencies to work out the 
``bugs'' before tackling the final full-scale exercise. These types of 
multi-level exercises should continue and be expanded as a key 
component of any federal terrorism exercise program. On a daily basis, 
close coordination and cooperation is the exception not the rule. 
Working through problems and resolving issues as part of these 
exercises brings responders and policy makers together and fosters 
closer cooperation which ultimately leads to lives saved.
    A common fault of exercise design, especially in high visibility 
exercises, is a desire to ``not look bad.'' In many exercises, 
important functions are left untested because a perceived weakness may 
be observed, reported on, and made public. Exercises, by their very 
nature, are designed as training tools. It is assumed, if not 
understood, that mistakes are made during training. Making a mistake 
during an exercise is natural and nothing to be ashamed of. During the 
critique process, problems are identified and potential solutions 
found. These problems are then remedied through future planning, 
training, and re-exercising. This cyclical process corrects weaknesses, 
focuses on prior successes, and ultimately builds a stronger system.
    In retrospect, a number of lessons learned from the TOPOFF 2 
exercise should be shared for the benefit of those who will follow and 
to guide the development of future exercises. Highlights of these 
lessons include:
        <bullet> Limit the number of objectives that the exercise will 
        try and accomplish. Many departments and agencies often have a 
        shopping list of things that they want to test / try in an 
        exercise. The more complex the exercise becomes, the greater 
        the potential for failure or for participants to become 
        disillusioned. Exercise objectives should be realistic for the 
        type of scenario being developed.
        <bullet> The exercise can not be everything to everyone. As 
        stated above, not every agency may be able to participate in 
        every exercise. For example, in a biological scenario, collapse 
        search and rescue teams, or hazardous materials response teams 
        may not be needed. Again, participation in the exercise should 
        be realistic, based on the scenario being developed.
        <bullet> Coordinated multi-jurisdictional decision making must 
        be included. During TOPOFF a decision was made in Washington to 
        close O'Hare International Airport and suspend passenger rail 
        traffic in and out of Chicago, without consultation with the 
        City of Chicago, the State of Illinois, or the federal regional 
        agencies that were participating. This decision left local 
        governments scrambling on how to implement the decision, and 
        more importantly, how to re-start operations when the airport 
        and rail station were declared safe. This type of coordination 
        is essential during a real incident, and now is the time to 
        learn how to function.
        <bullet> Future exercises must focus on the weaknesses or 
        problem areas discovered in previous exercises. During TOPOFF 1 
        a number of problem areas were identified with the Strategic 
        National Stockpile. During TOPOFF 2 various federal, state, and 
        local agencies worked diligently to work through these issues 
        and develop procedures that would ensure effective operations. 
        Future exercises should continue to build on the lessons 
        learned so that new and better procedures can be developed.
        <bullet> Future exercises should allow continued exploration of 
        new and more effective ways to respond and recover. One 
        official from the Department of Homeland Security likened the 
        TOPOFF exercise to a laboratory. I cannot agree more. While the 
        exercise tests knowledge of plans and systems, it also provides 
        an opportunity to ``test'' new approaches and provides hands-on 
        training to acquaint emergency managers and responders.
        <bullet> Future exercises should explore recovery issues. In 
        most exercises, a test of the capability and capacity of 
        government and the private sector to effectively respond is 
        scripted. Exploration of the issues related to long term 
        recovery are often not a key focus. Response exercises often 
        become media events where government can visibly demonstrate 
        capabilities. Recovery activities, on the other hand, usually 
        take place in a command center, hidden from public view, where 
        decision making and prioritizing are the key. These activities 
        are not very photogenic and therefore don't tell ``the 
        preparedness story'' that government wants the public to see. 
        While life-saving skills must be constantly honed, it is 
        equally important that emergency managers work through the 
        problems associated with recovery.
    Finally, it is important that we focus on a critical component, 
common to each of the three phases of preparedness previously 
described. The one common thread to all three phases is the individual 
charged with the responsibility for management of the community's 
preparedness program. This person is the local emergency manager. Since 
September 11, 2001, significant national attention has been given to 
the nation's first responders. Millions of dollars have been spent to 
provide our first responders with the latest in technology and life-
saving equipment, as it should be. However, little or no money has been 
allocated to upgrading our aging command and control systems, emergency 
operating centers, and more importantly to increasing the support to 
the local officials who are charged with the responsibility for 
managing a major crisis.
    In most communities, across the nation, the position of emergency 
manager is filled by a part-time or volunteer. Even in communities 
where a full time manager exists, staffing levels for this position are 
less than adequate to maintain an effective and robust crisis 
management capability. Preparing for the TOPOFF exercise required 
almost a year of planning and training. In the early phases of 
planning, monthly multi-day meetings occurred. As the date for the 
exercise drew closer, an almost full-time personnel commitment was 
required. In many communities the level of commitment needed to support 
an exercise of this magnitude would not be possible, even though the 
benefits from this type of exercise are enormous. If this level of 
stress is generated by an exercise, then what might be the impact on 
the emergency system created by an actual event?
    In conclusion, the benefits to the nation and our citizens by 
participating in emergency exercises are immeasurable. Exercises allow 
first responders and emergency managers to understand the demands that 
may be placed on their community during a terrorist event or other 
disaster. For any exercise to be effective, however, requires a firm 
commitment to the other two components of the preparedness triangle, 
planning and training.
    Continued support of the emergency preparedness program, as well as 
those who manage that program, by the Department of Homeland Security 
and members of Congress is essential to increasing the level of 
preparedness through the country.

    Chairman Cox. Mr. Kimerer, Ms. Mencer, and Mr. Gruber, 
thank you for being here as a resource as we dive ahead into 
questions; and thank you for all the work that you all do in 
keeping our Nation safe.
    One of the major questions that Congress is now wrestling 
with as we write legislation is whether or not funding 
terrorism preparedness is in some way different than funding 
preparedness for other hazards that can produce similar 
symptoms. For example, a building can blow up because of a 
natural gas leak. The casualties might be identical to those 
occasioned by an Oklahoma City bombing type attack on the same 
building. Is there a difference when you train in responding to 
terrorism that is manmade and in responding to either acts of 
nature or accidents?
    It is possible, for example, that terrorists could use 
bioweapons. It is also possible that we could actually have an 
outbreak of plague which would be a public health emergency. 
Would there really be a difference in the way that we 
responded? We have varying views about this in Congress, and it 
influences how we put the money into the hands of first 
responders.
    At this point, I want to share with you my own view, which 
is that there are differences and there are similarities, but 
from the standpoint of first responders we only have one first 
responder. We only have one Fire Department, we only have one 
Police Department, and they are not on duty 24/7 waiting for a 
terrorist incident. They are doing a lot of other work in the 
meanwhile. So they have to be prepared to deal with all 
hazards.
    I don't think that is the argument. I think the question 
is, rather, back here in Washington, when we make funds 
available, should there be an additional pot of money available 
that is separate from all hazards money that goes directly to 
terrorism training? Because there are unique aspects of 
terrorism. And when I say training, I mean also terrorism 
preparedness in all of its manifestations, because there are 
differences.
    Facially, it strikes me that there is a difference between 
a hurricane coming through town, which at least when it hits 
has predictable behavior, and the same kind of havoc being 
wreaked by human beings who not only can strike but who can 
plan avoidance in real time. This is a thinking threat, not an 
unreasoning one.
    Likewise, as some of you mentioned in your prepared 
statements, you have to focus on different things when you are 
cleaning up after acts of terror. After the Madrid bombings, we 
wanted to make sure that we gained as much in the way of clues 
to the way terrorists operate as possible, so we went in not 
only to clean up the mess but also to find out exactly how this 
happened. There are chain of evidence and custody of evidence 
issues that law enforcement is, of course, well aware of when 
there is a thinking assault by a human being as against other 
kinds of disasters that at least symptomatically produce the 
same result.
    If you could--and I would address this to all the panel--
help us with this. Should Congress have separate funding 
available as an incremental addition to what we make available 
for all hazards?
    Miss Mencer, we will begin with you.
    Ms. Mencer. Thank you, Mr. Chairman.
    I think you are absolutely right in your description. It is 
different when you respond to the scene of a terrorist event 
because, as you have described, you are entering into a crime 
scene. So you have to preserve the evidence there. You have to 
worry about intelligence collection, as well, so you can catch 
the people who did it. So it is very different than a hurricane 
or a tornado. So, yes, it has special requirements. It requires 
specialized exercises to deal with it, and specialized training 
and equipment. So that is absolutely correct.
    And, Corey, would you like to add anything to that?
    Mr. Gruber. Yes, ma'am.
    Sir, the very important point that we are talking about is 
a human architect that is adaptive, versus historically what we 
face, which has been morally neutral nonadaptive hazards. When 
we face a human predator, we have the addition of prevention 
activities, deterrence and defeat of that adversary, and 
intelligence collection and gathering. So we believe that, if 
we take a capabilities-based and a scenario-based approach to 
planning for these events, we need to look across the full 
spectrum of the missions that we face as a department, or as a 
Homeland Security community, but we have to focus on the very 
most essential tasks.
    And the Homeland Security Act, and the national strategy 
have told us that prevention is the foremost imperative. So we 
have very much focused our efforts on that significant 
difference from facing seasonal, geographic and nonadaptive 
hazards.
    Chairman Cox. Chief Kimerer.
    Mr. Kimerer. Mr. Chair, the fact is that there are great 
similarities and great and profound differences when looking at 
preparing for terrorism. As Mr. Gruber said, a terrorist act is 
the result of a malignant use of the intellect and has a level 
of aggression and deliberation and strategizing that makes it 
absolutely incomparable to other natural disasters. The fact 
that we do a lot of the same things, of course, is an argument 
for exercising and training and practicing. Implementing 
incident command is somewhat universal. Preparing for the next 
wave of attack or the next part of the stratagem makes the 
whole curricula of exercising for terrorism very unique and 
fairly new to local law enforcement. The consequence 
management, as was mentioned before, has profound implications.
    Case in point, as part of our exercise we had our 
responders preparing for working through both the intelligence 
and the reality of there being a secondary explosion, of there 
being the discovery of a safe house, of things that were 
uncovered and disclosed in the crime scene that might have 
pointed to additional threats in other parts of our region or 
even other parts of the country, like Chicago. It is a unique 
body of wisdom that we need to be working toward in looking at 
and preparing for and responding to detecting and deterring a 
terrorist act.
    Chairman Cox. Director Mefferd.
    Mr. Mefferd. Let me build on the comments that have been 
made. I totally agree with your assessment of two roles. When 
we deal with a natural disaster, you are dealing with an event 
that has very clearly manifested itself. Typically, you will 
have one thing to worry about, and that is the disaster. When 
you are dealing with a terrorism event, one of the things you 
must think about is I, as a first responder, am a target; and 
one of the goals of a terrorist is to try to lure the first 
responder to that scene and now move into a second attack which 
now takes down the first responder.
    But as we set that aside and look at some of the other 
issues, the evidence roles that have been brought up, one of 
the other critical roles today is we have to think about long-
term public health effects. If we did have a release of a 
biological agent or a chemical agent, again, if we look at a 
typical disaster, we take an individual to the hospital. We 
treat them, we release them, and the whole process maybe takes 
a few days to a week. We are talking about potentially people 
who will be evolving into some kind of a disease or some kind 
of long-term problem months or year later. So records need to 
be kept, and systems need to be built to handle that. Long-term 
epidemiology processes need to be put in place.
    If you will, we are used, in the law enforcement community, 
to work as detectives who look for clues for crime scenes. 
Today, we are looking at medical health professionals who are 
also becoming detectives to try and find out what was released, 
where was it released, how many people were exposed to that 
release.
    And, finally, the whole issue of emergency public 
information. Again, in a tornado, it is real easy to say a 
tornado has gone through. This is where you come to get your 
assistance. This is the shelter area.
    In a biological attack, for example, we have long-range and 
long-reaching public information and community-building types 
of things that we have to look at. How do we make the 
population aware of the fact that the event is over? Is it 
over? How do we make the community aware of the fact that this 
area is safe again? And how do we make--how do we clearly 
identify those issues?
    So certainly there are some uniquenesses--some tremendous 
uniquenesses with the issue of terrorism response and recovery.
    Chairman Cox. Thank you very much.
    The Ranking Member, Mr. Turner, is recognized for 
questions.
    Mr. Turner. Thank you, Mr. Chairman.
    I would like to ask each of you to comment on this 
question. What level of preparedness standard are we working 
toward? And what experience comes out of these exercises that 
helps shed light on what that level of preparedness is? And 
perhaps even more importantly, I would like to have each of you 
tell us whether you think it is important for us to have a 
preparedness standard.
    In the legislation that the Chairman and I have introduced, 
and this committee has reported out, we call for the 
establishment of what we call the essential capabilities of 
preparedness that we think should be established. But I would 
like your comments on whether or not this is an issue of 
importance that we should address.
    Mr. Mefferd. That is a kind of a moving target. Certainly, 
a level of preparedness nationwide is something we should work 
towards. I think one of the problems that we see across the 
board--and I am going to go back to the personnel issue. As we 
look towards establishing a standard, we need to understand who 
is going to be responsible for attaining that standard across 
the country. The typical individual who serves as the emergency 
manager, the person responsible for building that capability 
for coordinating the planning, for bringing those pieces 
together in many cases is a part-time, if not a volunteer, 
individual. Should we then set that standard based on that? And 
I don't believe so.
    I think we need a standard. We need to work towards an 
ultimate goal. As we look at standards in law enforcement, as 
we look at standards in the fire service, the challenges that 
we have to meet today are a moving target. But they are always 
getting better. They are always getting higher. And certainly 
as we look at standards for emergency preparedness, whether it 
is for dealing with the effects of a tornado or a flood or a 
terrorism event, we need a nationwide standard that we can all 
work towards that we can all build upon and try to attain. 
Because I think that is the basis not only on which we build 
our training and our exercises but it also gives us at the 
local level a goal upon which we need to build our budgets and 
build our local programs towards attaining that national 
standard.
    Mr. Kimerer. Ranking Member Turner, September 11 stunned us 
out of a kind of lethargy about the complexities of preparing 
for and responding to the myriad possibilities of both disaster 
and evil in the world. It illuminated for us, as did the TOPOFF 
exercise, the need to greatly expand the frame of reference we 
must acknowledge and build in order to be prepared to respond--
to prevent, detect, deter and respond. Things like unification 
of intelligence data, making it more accessible, having better 
and more robust data collection around the specific threats 
that materialize in the realm of terrorism, those were things 
that were not pre-occupying concerns of local and regional and 
State law enforcement before September 11 or before we 
undertook these kind of exercises. They contributed to the need 
to have baseline, I guess, standards, for want of a better 
term, but certainly objectives and doctrine and goals that we 
must all acknowledge and all work toward.
    The absence of a national incident command system, which 
some of us have been saying probably should have been in place 
many years ago, was certainly brought home to us and is now a 
priority objective of agencies like mine and, clearly, the 
Department of Homeland Security. That represents an essential 
and kind of universal benchmark and standard that we need to 
aspire to.
    All of this of course, depends upon a kind of collective 
recognition of what is important, of what is essential; and I 
think together we will very shortly come up with what 
represents the basic, essential doctrine we use to determine 
how we take care of our citizens at all levels of government in 
the face of all realities, whether it is an accident of nature 
or the work of an evil intellect bent on destruction.
    Am I answering your question?
    Mr. Turner. I think you are. I think it is going to be very 
difficult to motivate the Congress to adequately fund the needs 
that we have, particularly at the State and local level, unless 
we first establish some essential capabilities that we are 
trying to build. As long as we are just passing out money 
without any measurement of what that money is achieving, I 
think it is going to be very easy for the Congress and the 
administration to simply say, well, this is all we can afford. 
And I think if you define through some logical process, a 
planning process, what it is we are trying to build in this 
country, based upon the real threats and vulnerabilities that 
we face, which is the responsibility, I think of the Department 
under the law to determine, if we don't have any measurements, 
we are not going to get to the end goal and there will be not 
be sufficient political pressure to get us there.
    So I hope all of you will continue to advocate that 
position as we go through this process, like we mandate in the 
legislation that we have reported out of this committee. We 
mandate that the process take place so we will know what we are 
trying to build.
    Mr. Kimerer. Sir, I couldn't agree more; and there are a 
couple of things on point to that.
    First, all of our work has been--
    Ms. Dunn. [Presiding.] If you will be brief.
    Mr. Kimerer. Oh, I am sorry. Two very quick things then.
    We approach our identification on the basis of threat 
assessment, the intel, of risk assessment and risk analysis. 
That is the formula upon which we at the local level and the 
regional and State level are making our decisions.
    And the second is we are proceeding with doctrine which I 
think is right on point, like national incident management to 
further move the ball down the field; and we endorse those 
efforts and are participants in the design of it.
    Ms. Dunn. Thank you very much.
    The gentleman's time has expired.
    Ms. Mencer, can you talk to us a bit about the lessons 
learned from TOPOFF 2? And exactly, as you mentioned, we are 
going into the planning of TOPOFF 3 What is it that you take 
into consideration that you learned from the last set of 
exercises a year ago?
    Ms. Mencer. I would be happy to do that.
    If I could address for a minute the other question, look at 
the moving target, as Mr. Mefferd described, that has been 
assigned to us with Homeland Security Decision Directive 8, 
which talks about how to measure preparedness. We are indeed 
looking at establishing essential tasks and how to develop the 
capabilities needed by communities to address different 
incidents. We will be available to provide an in-depth briefing 
on that, if you wish, as to where we are with that process.
    As to the lessons learned from TOPOFF, I would like to hand 
that over to Corey to address.
    Mr. Gruber. Thank you, Ma'am. We started the exercise when 
we developed the concept with objectives. Objectives are the 
foundation of exercise design. And each objective is an 
expectation of performance. So as we designed the exercise and 
then completed and analyzed that performance, that is what 
allowed us to identify specific lessons. And we had a 
voluminous amount of lessons and hundreds of evaluators across 
the Country who were looking at the performance at each 
exercise venue.
    Out of that, we distilled those down into the reports that 
you have seen that we produced for every participant. We ran a 
series of after-action conferences, both in the venues and at 
the national level, to examine those lessons.
    We have built a secure but unclassified Web portal that has 
a lessons-learned/information-sharing component that has over 
3,000 registrants across the Nation who are using the portal to 
access that information.
    Some of the most important points that we learned out of 
the TOPOFF exercise, I will start with the foremost one, we had 
a Department that was all of roughly 70 days old. And it 
provided us with an unparalleled opportunity to look at our 
roles and responsibilities for all of these disciplines that 
had converged under Homeland Security in a manner that was 
unprecedented. It afforded us a great opportunity, at the very 
start of the exercise, to help to define and literally 
engineer, in the course of the exercise, roles for people like 
principal Federal officials--how, as Clark and Tom have both 
alluded to, we worked together and clarified our 
responsibilities.
    We also learned very important lessons about how we 
understand the impact and the effects of the agents that we 
used in the exercise. As Tom alluded to, how do we get a common 
technical picture of the event that occurred so that we can 
predict the consequences, understand how it impacts our public, 
and make sure we are providing them with the right information?
    As a result of that exercise, we developed an integrated 
emergency communications plan that was actually a result of the 
very first seminar that we did in the exercise series, which 
was focused on public affairs and had 74 public information 
officers from across the Country at it. I'd like to give Tom an 
opportunity to talk about some of the concrete lessons on 
bioterrorism, and perhaps Clark on the radiological. But it was 
a tremendous opportunity to think about the roles and 
responsibilities for the Department.
    Tom?
    Mr. Mefferd. Obviously, the bioterrorism scenario is 
significantly different than the radiological dirty bomb in 
that it did not have any of the--typically, what is used in the 
business--the blood and guts and gore that goes along with a 
typical disaster. All we had was a whole bunch of ambulance 
calls to start it off with. We have learned since the exercise, 
I think, better sharing of information.
    There has been significant work--Mr. Turner talked earlier 
about the issues of communications with our hospitals. In the 
State of Illinois, for example, we are installing as we speak a 
satellite-based communications system that will link our 
primary command post hospitals Statewide. We have a new system 
that the Illinois Department of Public Health has brought 
online to share patient information across the board, so as we 
look at hospital capabilities, bed capabilities and so on and 
so forth, that can be rapidly transmitted to our State Public 
Health Command Center in Springfield.
    We are also working on increased communications 
capabilities to ensure that we have good epidemiology as well 
as the ability to share that epidemiology.
    Another major thing that came out of this exercise was 
really built on TOPOFF 1 the headaches of the Strategic 
National Stockpile. How does it work? How do we bring it into a 
State? And ultimately, how do we get it to the residents that 
need it? In our county alone, we have spent at least now 2.5 
years before TOPOFF as well as since TOPOFF working those 
points. And we anticipate shortly being done with the 
establishment of multiple sites around our county where we can 
treat every man, woman and child in a reasonable amount of time 
to give them the prophylactic drugs that they need in this 
situation. Those are directly a result of the lessons that we 
learned in TOPOFF.
    How do we do it? How do we manage it? How do we make it 
work? You do it one way in an exercise, and then you build on 
those capabilities for real.
    Mr. Kimerer. The last time I was asked to recap the lessons 
learned for Seattle from TOPOFF, 3 hours later people were 
exiting the room. I will not subject you to that.
    We learned hundreds of fixable things right off the bat, 
things that were more logistical in nature, some of which we 
want to remain confidential but involved how to manage a 
command post and have the right equipment and anticipate the 
decon requirements and things like that. To that end alone, if 
nothing else happened in TOPOFF, we would be miles ahead of 
where we were before the exercise. And we have literally 
addressed all but about 5 percent of those small fixable 
things.
    Some of the larger issues, we are working diligently to 
address. We had an issue with plume modeling which got some 
press nationally where there were conflicts in attempting to 
ascertain the degree to which contamination was present in the 
atmosphere. In the end, that did not hamper the field 
operations because the field commanders quite wisely said, 
``Give me the largest plume, and that is what we are going to 
respond to.''
    Since then, there has been a lot of academic work to create 
what is called consensus plume modeling which actually will 
meet that gap. Those kinds of details were really invaluable to 
address, again, in times of calm rather than in times of 
crisis.
    Our focus has been to continue to refine our precision in 
implementing incident command, equipping our first responders 
and dealing with the influx of various interests and needs, 
including what has not really been mentioned today, the 
business community and the private sector, in the redress of a 
critical incident. And that does include coordination with our 
Federal partners and making sure we do not have overlapping 
jurisdictions or what I affectionately refer to as 
jurisdictional creep, which I was gratified to see was not a 
big factor in our experience with TOPOFF 2.
    Ms. Dunn. Thank you very much.
    Thank you all of you.
    Now, I would like to call on Congressman Thompson, who has 
8 minutes for questioning.
    Mr. Thompson. Thank you Madam Chairman.
    And I appreciate the testimony offered today in the 
hearing.
    Ms. Mencer, if either one of the scenarios we heard today 
happened in a community of 10,000, what would the response be?
    Ms. Mencer. Well, you mean, what would the response of the 
Department be or the communities?
    Mr. Thompson. Well, yes.
    Ms. Mencer. All right. Well, I think that we have made 
great strides with every successive TOPOFF, as has been 
described, with better communications and better plans.
    I think, even at the local level, in the smallest 
community, because of the grant process where everyone has to 
communicate what their needs are, what their assessment is of 
their readiness and what equipment they still need, what 
training and exercises they need, they are all talking to each 
other, which we did not really see prior to September 11th. We 
did see this with the individual TOPOFF exercises.
    But now every community in the Nation, and in the 
territories, has been talking about, how do we prepare better 
as a unit, as a community, not just law enforcement, not just 
fire, but working together?
    So I think, all of the lessons that were learned in other 
communities, are being shared across the Country through the 
Web sites that we have up that share best practices. So I think 
it would be a much better response than we would have seen 
prior to September 11th.
    Mr. Thompson. Well, I guess the question is, have you 
conducted any internal review of a scenario in a rural area, 
either one of these situations?
    Mr. Gruber. Sir, we have conducted almost 400 exercises 
across the Country, and they have been in every State and 
territory. And some of those have involved scenarios in rural 
settings. In fact, the very first TOPOFF was done in the State 
of New Hampshire, in a relatively small community, Portsmouth, 
New Hampshire, which is about 25,000 population, and which 
relies very heavily on mutual aid. The event was a chemical 
event, explosively disseminated, and involving hundreds of 
victims. They relied on resources throughout the State and the 
entire region. And that is an important point that the 
Secretary and others have made about emphasizing and 
strengthening mutual aid assistance compacts for communities 
that do not have all the resources available.
    Mr. Thompson. Well, so the comments I get from rural fire 
departments and sheriffs departments and other people about 
having adequate equipment to deal with emergencies and other 
things, is your testimony that that is not the case?
    Mr. Gruber. No, sir, no. We, obviously, know that there is 
great need. We are trying, though, speaking specifically about 
exercises, to encourage very strongly and, in fact, in the 
manuals that we have published and the guidance that goes out 
with the grants, to strongly encourage States to make sure that 
exercises are available to their communities, and then that 
communities participate, not just in isolation but as mutual 
aid, as emergency management assistance compacts, to draw 
resources from where they may not have them organically to that 
setting.
    Mr. Thompson. Well, for my own information, can you provide 
this committee with a State-by-State listing of those 
demonstrations that have gone on?
    Mr. Gruber. Yes, sir, we have that breakdown by exercise, 
by location, by scenario. We would be happy to provide it.
    Mr. Thompson. Ms. Mencer, I do not want to pick on you so 
much, but you know, it is your job. The issue of how we pick 
off--pick the TOPOFF scenarios, I know we are going on to, 
based on your testimony, to Connecticut and New Jersey next. We 
have two Members from New Jersey on the subcommittee, one from 
Connecticut. And I would hope, at some point, you will involve 
them in the exercise. I would shudder to think of you going to 
those two States without at least involving those Members in 
what you do.
    Have there been any communication with any of the Members 
of the committee?
    Ms. Mencer. Well, the process to select the venue sites is 
a long one and a competitive one and one where they volunteer 
to be the sites. So the States themselves were very active 
participants in this selection process and raised their hand to 
do that. And it was a selection process that ensued, and they 
won. But, yes, we will indeed involve them in this as we 
proceed.
    Mr. Thompson. Well, I think that is really important 
because, at some point, just like you have people from Seattle 
here, and I am sure they were intricately involved in what you 
did in Seattle, they ought to be likewise involved in their 
communities. So I would encourage that.
    Ms. Mencer. Absolutely.
    Mr. Thompson. The Presidential Directive 8 has called for a 
multiyear National Homeland Security preparedness plan. Has 
that been done?
    Ms. Mencer. We are in the process, sir, of implementing 
HSPD 8. It is a very complex decision directive. We actually 
have a meeting of the steering committee tomorrow where we are 
bringing in various leaders from all the disciplines that are 
involved with this process. We also have established concept 
teams that look at the essential tasks and capabilities that we 
need to establish as a Nation.
    So we would be happy, since it is a very, very 
comprehensive decision directive, to give you an in-depth 
briefing on that, because it is quite complicated. Yes, we 
would be happy to.
    Mr. Thompson. Now, has the President formally adopted it 
and provided it?
    Ms. Mencer. We have done briefings up to the Secretary 
level. And of course, it is a presidential decision directive, 
so the President is aware of the directive, yes.
    Mr. Thompson. No more questions.
    Ms. Dunn. The Chair yields 5 minutes to the gentleman 
from--where are you from, Jim? Nevada?
    Chairman Gibbons.
    Mr. Gibbons. Yes, I will take Nevada. Ladies and gentlemen, 
thank you very much for your presence here today. Thank you, 
for your testimony, it has been very helpful to us with regard 
to our better understanding of these exercises.
    There are three very brief questions I want to ask, and 
perhaps, I should get them out first and let each and every one 
of you pick one of the three that you want to answer because 5 
minutes isn't enough time to ask this.
    First of all, with relation to focusing on regions, with 
these exercises, to what extent do you incorporate and at what 
point do you incorporate the military inasmuch as there is 
always going to be a jurisdiction who's got the best equipment, 
who's got a better response capability, who should be in charge 
when you are regionalizing that? I am sure that Seattle is a 
big area, but if the National Guard of the State of Washington 
were called in, it obviously would have a capability that 
perhaps the City of Seattle does not have.
    So at what point in these regional exercises do you call in 
your military, your State military and/or Federal Military? 
That is one.
    second, to what extent has public relations within the 
gambit of these exercises affected either the implementation of 
the lessons learned or the exercise itself? And how has public 
relations affected that? It is obviously very critical to have 
the public involved in what is going on, not only for 
confidence but also for just the basic control of what is 
expected out there in terms of the public's need-to-know.
    And finally, the intelligence-sharing aspect is very 
critical to me. I want to know whether or not you feel the 
communities and, especially you, Chief, feel you are getting 
the intelligence you need today to meet the threats and the 
responses to these threats that you are planning for in the 
future. So any one of those three questions. You have 3 
minutes; 1 minute each will be fine.
    Mr. Kimerer. I think the wise person goes first, so you get 
to pick one of the three questions. Let me take the one I think 
you directed to me which has to do with the intelligence 
sharing.
    Thing is, the big frontier, it represents one of the most 
challenging parts of creating the structure of prevention, 
detection, deterrence and response. We are working in our 
region through military nexus it so happens, through LINCS, 
which the Navy is kind of the sponsoring agency for. The model 
seeks to create a data warehouse that is secured and enables 
agencies throughout the region to access the information and 
then, further and more to the point, create a unified 
analytical structure, so that it is not raw data, but data that 
is being processed in a joint fashion.
    That I think is an importable model. It can be used on a 
national level and represents what I think might emerge as kind 
of the gold standard in organizing this incredibly complicated 
and voluminous issue of intelligence collection, analysis, and 
sharing.
    As far as our communication with DHS on the intelligence 
front through the Joint Terrorism Task Forces, it has been very 
good. I was prepared to say that we still have a lot of 
problems, and of course, we can always be better. You do not 
have to be bad to be better. But I am finding regular 
briefings, regular updates, regular access to my counterparts 
in the FBI and the Department of Homeland Security on issues of 
the moment having to do with intelligence.
    Mr. Gruber. Sir, if I might, I will address the public 
relations question. At the request of the community, in TOPOFF 
2, the very first seminar we conducted was on public relations 
and on emergency public information, because the community felt 
that was the most important issue that we had to struggle with. 
We had 74 public information officers who were involved in that 
exercise at that seminar. To make sure that the public was 
aware, a very important objective was to reassure the public 
about what we were doing. So we took out full-page ads in 
newspapers. We conducted press conferences in the venue. You 
saw a little bit in the video of Secretary Ridge conducting a 
national press conference so that the media could help inform 
the public about this event that was occurring.
    The exercise was covered by over 670 media releases, print 
and press. It had very extensive coverage, as you saw reflected 
in the video. We also had an extensive network of citizen 
volunteers who helped in the exercise, role-played as victims, 
and supported the exercise activity. That was a very important 
component.
    And finally, for future exercises, our Assistant Secretary 
for Public Affairs, Ms. Neely, and her team have been integral 
to the planning process to insure that, both in terms of 
reassuring the public and in terms of designing an exercise 
that accurately reflects the issues related to public 
relations, that that is done effectively and accurately.
    Mr. Mefferd. If I might, let me build on the public 
information and then move into the military for the second. I 
want to indicate one of the things that we really did, that we 
felt worked very well with regard to public information prior 
to the exercise, was a cooperative effort between DHS, which at 
that time was just the FEMA portion. FEMA conducted for the 
Chicago venue an Advanced Public Information Officers Course at 
their national academy in Evansburg. This gave us the 
opportunity to bring together public information officers from 
the City of Chicago, from the outer counties, as well as the 
State of Illinois, to work through one week of hard work, 
learning to work together as a team. And that is one of the 
things that we have tried to keep going since that time.
    From the military side, and just the State military, but 
certainly one of the things that we have in the State of 
Illinois which we are pretty proud of is a seven-part response 
that relates not only to State capabilities but local 
capabilities. From the State capability, the State has built 
something called a State weapons of mass destruction response 
team. A critical component of that response team is the civil 
support team which is part of the National Guard Service. The 
system that we have established in the State of Illinois is 
that any time that there is a weapon of mass destruction or a 
terrorism incident, a call is immediately placed to the State 
Emergency Operating Center, and within 90 minutes tops--again, 
obviously the State of Illinois is a big State--but in 90 
minutes tops, there will be representation on the ground from 
the State Weapons of Mass Destruction Team, including the Civil 
Support Team.
    So we feel they are an integral part of our terrorism 
response, not only for planning but training.
    Ms. Dunn. You did not run over.
    Thank you all for your answers.
    The Chair yields 8 minutes to the gentleman from 
Washington, Mr. Dicks.
    Mr. Dicks. I want to thank all the witnesses today.
    And Clark, good to see you again and appreciate your good 
work out there.
    Let me just ask one thing on communications. There was--as 
I understand--there was a problem between the Seattle Fire 
Department and the Police Department, in terms of 
communications. Has that been fixed since TOPOFF 2 in terms of 
communications interoperability?
    Mr. Kimerer. Yes, actually, we have a pretty good 
infrastructure in actually the whole of the State of Washington 
but particularly King County that supports sharing frequencies 
and allowing for an expansion of our interoperable 
communication as needed.
    Of course, it tends to be a rather expensive proposition, 
but the ability of the Police and Fire Department, as well as 
mutual aid agencies in our region, has increased hundredfold 
immediately before and since TOPOFF& And we look to, you know, 
even broadening that to create a regional or even a Statewide 
network that allows for interoperable communication and 
flexibility in communications.
    We were able to communicate on the basic frequencies. Where 
I think we had some challenges when we started breaking off 
into tactical frequencies, specific taskings, special 
operations things of that kind, the depth that we needed was 
not present. It is now. We still have more to do and more to 
go, but we have certainly addressed a fair number of those 
issues and will continue to work on it as we--
    Mr. Dicks. In your statement, you mentioned doctrine, 
policy and plans. Give me a sense of what this doctrine--I 
mean, is this a doctrine of how to respond to a terrorist 
attack, or is it a doctrine of how to respond to a natural 
disaster? What is the difference here?
    Mr. Kimerer. I can give you an example that exists which is 
probably the best one, rather than making one up. The doctrine 
of, say, incident command says that there are three priorities 
you address, and they are priorities. First, life safety. 
Second, incident stabilization. Third, property conservation.
    As a commander in the field, when I have decisions to make, 
when I have resources that I need to commit, I now have a very 
clear set of principles that tell me what my priorities are and 
where I make the choices.
    Similarly, with something like terrorism, the doctrine of 
importance to stabilize the incident and to contain it and to 
search for additional threats, additional acts of terrorism, is 
very high. It has to be always kept in mind. These are the kind 
of things that a commander--
    Mr. Dicks. That is a terrific answer. Let me ask you this. 
As Ms. Mencer explained, it is a police scene, too, at the same 
time.
    Mr. Kimerer. That is right.
    Mr. Dicks. Where does that fit into this?
    Mr. Kimerer. That is a very good question.
    Mr. Dicks. I would hope it is not the highest.
    Mr. Kimerer. Not the highest. The highest is treating the 
injured and dealing with the mass casualty, and that, too, 
defines how we respond and how we manage the scene. We yield to 
the fire department, who has the priority in dealing with the 
people that need the help. We support them. When we have to 
make a choice between preserving a crime scene and helping 
somebody who is injured, it's an easy choice to make. Those are 
the doctrinal issues that we hope become more and more and more 
clear as time goes on. Exercises help us do it. Some of the 
work that is being done by DHS is helping us.
    But we want everybody in that town of 10,000 to know that 
that is the most important thing, this is the second most 
important, and then, from there, you build policies and plans.
    Mr. Dicks. How did the mayor get along--the mayor was kind 
of running the show, right?
    Mr. Kimerer. Yes, he was.
    Mr. Dicks. And then the Federal Government had its lead 
agency. Was that FEMA?
    Mr. Kimerer. The National Response Plan calls for the 
Principal Federal Official; the PFO was on the ground quickly 
in the incident and was the overall coordinator of the myriad 
Federal assets that were there.
    Mr. Dicks. Who was?
    Mr. Kimerer. Mike Byrne.
    Mr. Dicks. From where?
    Mr. Kimerer. DHS.
    Mr. Dicks. As I understand it, Mr. Gibbons is not here, but 
when we were out at Northern Command and I asked this question, 
which, as a Member of the Defense Appropriations Subcommittee I 
have been concerned about, when is the military called into 
this, and how would that happen? And I was told that if the 
lead Federal agency feels that there is a requirement for 
military equipment or military personnel, that they would then 
be the person who would communicate with Northern Command, and 
you have got--we have, of course, the National Guard out there 
in the State of Washington, and they have got--what do they 
call it? The Regional Response Team.
    Mr. Kimerer. Uh-huh.
    Mr. Dicks. They would be involved, but there might be 
something beyond that you might need from the military in terms 
of if you were dealing with weapons of mass destruction or 
something like that. Did you guys get into that? Was the 
military called into this thing in any way, shape or form?
    Mr. Kimerer. Military was present from the beginning.
    Mr. Dicks. Was it the National Guard?
    Mr. Kimerer. Both CERT, the National Guard, in fact there 
was NORTHCOM representation.
    Mr. Dicks. They were actually there?
    Mr. Kimerer. Yes. Of course, the issue is, when that switch 
is flipped, what are the conditions and criteria that need to 
be met to engage the military in whole or part?
    Of course, States like Washington have laws about 
activation of the National Guard, and they proceed from 
declarations or proclamations of the governor.
    But having said all of that, the help we received, the 
guidance, the counsel, the prepositioning of potential 
resources that might be needed as the situation unfolded from 
the military was invaluable. And it was well rehearsed, and I 
think it is going to be there for us in the event we do need to 
invoke that.
    Mr. Dicks. How did the Federal-State relationship work? I 
mean, ultimately, you get down to making some decisions. How 
did that decision-making process work?
    Mr. Kimerer. They were just remarkably respectful of us. I 
am not sure what was going on when they were all by themselves. 
No, I think that their posture was facilitation of counsel and 
guidance, of offering support and a position of readiness to 
take over when the jurisdiction needed to change.
    We can't look at these incidents as being, you know, 
defined in a single event, single jurisdiction. When police and 
fire, fire in particular, have resolved a mass casualty 
incident, then you go into the crime scene investigation which 
is an FBI lead, which involves a change in jurisdiction of 
which then we become the support entity. When that is 
resolved--and there may be myriad of other changes in 
jurisdiction and resource allocation between then--we go into 
consequence management, which FEMA has a lead in, and DHS 
obviously has a big role to play.
    That continuum of engagement, I thought, was played out 
pretty well in TOPOFF. It wasn't always pretty. We were doing 
some education along the way. But there was a spirit of 
helpfulness and support that I found to be pretty uninterrupted 
and pretty commendable during the course of the exercise.
    Mr. Dicks. I am told that the hospitals, the health care 
side of this thing was of some concern. Is that right? I mean, 
of having adequate facilities or being able to work with--we 
had a lot of hospitals in the Seattle Puget Sound area.
    Mr. Kimerer. We learned a lot about the public health 
coordination side of the thing. Tom might be the one to ask. 
They got the full meal deal on hospital coordination.
    Mr. Mefferd. As I indicated earlier, one of the big 
problems we had was communication between the hospitals. We 
ramped up and played, if I remember, we had 130 hospitals 
Statewide that played in this exercise. One of the comments I 
have made in my written testimony is the issue of, we have got 
to look at the scope of the exercise, and that is probably one 
of the areas that we went a little farther than we should have. 
And that led to some of our communications problems in the 
exercise.
    As I indicated, one of the things we are currently working 
on in the State of Illinois at this time is the ability to 
communicate Statewide over a satellite-based communications 
system as well as an Internet-based data system tracking beds 
and patients and so forth. So, again, we have learned a lot 
from that exercise to more effectively work as a team.
    But the one problem we get into when we deal with hospitals 
is hospitals are profit-making entities as compared to 
Government-run organizations. As we look at the Government 
operation, we have to look at that a little differently as we 
look at hospitals, and I think we are doing very well with it.
    Mr. Dicks. Thank you.
    Ms. Dunn. Thank you very much, Mr. Dicks.
    Let me just pursue one question that Mr. Dicks asked you, 
chief, and I would like you to respond. And that was the 
question that only the principal Federal official would be able 
to call in the military, NORTHCOM for example. What if there is 
a situation where, a political situation, perhaps, where a 
mayor or public official is the principal officer and does not 
want to give up control of the situation to the extent of 
calling the military? Is there anything there that is 
available, a team of people who can be there and see that it is 
time to call them in and yet they haven't been called in?
    Mr. Kimerer. Well, of course, we are all going to be 
working in a centralized operations context, an operations 
center, which allows, obviously, access to all the key decision 
makers. The mayor can be dealing with the principal Federal 
official directly on issues that may result in some conflict or 
disagreement.
    Of course, the use of the military, probably, I think 
literally has to proceed from a presidential directive, which 
brings it into an entirely different spectrum. I would actually 
be interested in kind of the mechanics of it from Sue and 
Corey's standpoint. But my understanding, the National Response 
Plan provides for that, but only with the appropriate checks 
and balance of it proceeding from a declaration from the Oval 
Office. And in that event, unless there is an exigency, we will 
be governed by, you know, obviously, the Federal requirements 
and the Federal law.
    But I do say, on the other side of it, that nothing would 
be done in a vacuum the way we are structured now. The mayor 
would have, or the governor or the county executive would have, 
free and open opportunity to address the issue with the 
principal Federal official and anybody else that has 
jurisdiction over the matter.
    Ms. Dunn. Good. Thank you very much.
    Let me now call on the gentleman from New Jersey, Mr. 
Andrews, for 8 minutes of questioning.
    Mr. Andrews. Thank you, Madam Chairman, and I appreciate 
the panel's work, and certainly the exercise is very worthy, 
and I have learned a lot by listening to your comments today. 
Thank you.
    I want to pick up on something that Mr. Gibbons and Mr. 
Dicks was talking about, which is this crucial interface 
between military authority and the existing civilian authority 
at the time of an emergency.
    Now, I am assuming that this exercise was designed in such 
a way that you began when the emergency was reported. Is that 
correct? So there wasn't any part of the exercise prior to the 
explosion of the radiological bomb and the detection of the 
first people with the plague. Is that correct?
    Mr. Kimerer. Yes, as far as the full field exercise on May 
12, that is correct. We did have an exercise the week before on 
cyber terrorism which was very interesting.
    Mr. Andrews. One of the things I would suggest is, just in 
terms of the future TOPOFF, that you might want to start the 
process early. In Amman, Jordan, in April of this year, they 
did not have an exercise. They had a real situation where the 
Jordanian secret police uncovered a plot to detonate several 
truck bombs around the U.S. embassy in Amman, Jordan. And the 
reports are they successfully intercepted the attack and 
prevented the deaths of anywhere from 20,000 to 80,000 people.
    I am curious what would happen in our exercise if it began 
earlier. In other words, if you started the clock when there 
was some credible operational intelligence that trucks were on 
the way with a chemical weapon on them. That is when we get the 
answer to how the military fits into this concept.
    You know, one of the intriguing policy and legal questions 
is this Principal Federal Officer--if I am using the correct 
term--if I read the law correctly, can ask for military help, 
certainly, but certainly can't order it. That is something that 
the President of the United States down through the Secretary 
of Defense would have to do, which raises some questions about 
posse comitatus and exceptions to the posse comitatus law.
    It raises a whole host of the questions which were not 
dealt with in this exercise, I understand, about how this all 
relates. If people--I assume people from NORCOM--were people 
from NORCOM present? Northern Command?
    Mr. Kimerer. Yes.
    Mr. Andrews. I am sure they were present because they were 
invited to come and observe, correct?
    Mr. Kimerer. Corey?
    Mr. Gruber. NORCOM and the Secretary of Defense's 
representatives have been involved, and have been involved in 
the design from the beginning of the exercise.
    Mr. Andrews. I understand that, but in real life, they 
wouldn't be sitting there in the police operations center of 
Seattle or Chicago.
    Mr. Gruber. In fact, that would be at the request, again, 
of the mayor, the governor, and then the Federal authorities.
    Mr. Andrews. I think our next scenario needs to start 
sooner, because, you know, really dealing with two problems 
here. It sounds to me you thoroughly vetted the second of the 
two problems, which is what do you do once a disastrous attack 
has occurred, in this case two of them? Who responds? What do 
you do when you are working that through?
    There is another, which is, what do you do in those golden 
moments or hour when you, say, believe an attack is imminent 
and you have operational intelligence that might enable you to 
prevent the attack? What happens then? And I do think it is 
important that the next scenario take that into consideration.
    Obviously, the 9/11 Commission is dealing with that 
question retroactively. They are looking at what happened on 
the morning of 9/11 between the initial attacks on New York and 
the ultimate attack on the Pentagon and the failed attack of 
the plane that crashed in Pennsylvania, and they are trying to 
unwind who was doing what, when who was responding to whom, 
when. And that is going to be a useful exercise for us to read 
that.
    But I think it would be more useful to do it, to engage in 
a scenario where we had such a situation and, frankly, to the 
extent possible, within the ground rules of the game scenario, 
to do so under the conditions of surprise.
    I think this is a profoundly important question because you 
have dealt, from what I can tell, rather well with questions of 
Federal versus local and State, and public versus private 
entanglements. And that is what this exercise is about, 
thinking that all through. You had hospitals run by private, 
for-profit and nonprofit corporations. You had local police 
departments and fire departments. You had mayors and Office of 
Emergency Management, the State and county level, and I think 
the fact that you gamed this all through is very, very 
important.
    I think the missing link and one that literally may mean 
the difference between life and death some day is going to be 
how the military fits into this, when, who gets to make the 
decision, who falls into the subordinate chain of command once 
the decision is made and so forth.
    One more question, I read the key after-action issues 
report, and I see that, on page 4, there is the rather 
understandable finding that there were numerous issues directly 
related to lack of command-and-control discipline. The people 
sort of improvised, made things up as they went along and did 
not follow the doctrines as necessarily were supposed to be 
followed. That does not surprise me, and I don't think that is 
in any way scandalous. But I would ask the Department, Ms. 
Mencer, what have you done about it since the finding? If, God 
forbid, we had an incident this afternoon, an attack this 
afternoon, what has changed since this after-action report came 
out?
    Ms. Mencer. What has changed has been mentioned previously, 
that we now have the National Incident Management System, which 
we are training for all over the Nation to make sure that 
communities and essentials are up to speed with how they 
perform in the event of an emergency. So NIMS has been 
instigated, and that is crucial to command and control issues.
    The National Response Plan, of course, is now also in 
effect. As we continue to train up, those two things will 
contribute a great deal to correcting that situation.
    Mr. Andrews. I assume that the focus of the next TOPOFF is 
going to be how well that is working. It is one thing to 
promulgate it in theory and another thing to see it in 
practice. Is there a particular weakness that emerges from the 
analysis of the first exercise in terms of chain of command?
    Mr. Gruber. Sir, I think Clark talked about that 
eloquently, but perhaps a lot of it was that, in fact, we had a 
brand new Department with very significant responsibilities 
that was all of 74 days old. So much of what happened in the 
exercise was concept development and experimentation about 
those roles and responsibilities that have matured 
significantly because, getting back to your original point, 
there have been a host of exercises subsequent to TOPOFF 2 at a 
very senior level, looking very specifically at direction and 
control and how we do that.
    In fact, we have conducted exercises specifically with the 
Department of Defense to look at the points you mentioned 
earlier and to explore those. In the next exercise, we will 
integrate roughly 60 days of pre-incident intelligence activity 
to build on the point that you made.
    Mr. Andrews. I think that is important. And the 
recommendation I would make, to the extent it is feasible, is 
that the exercise start sooner. Perhaps it even start early 
enough that it could be prevented to see how we do under that 
kind of scenario.
    Madam Chairman, thank you very much.
    Ms. Dunn. Thank you very much.
    I yield 8 minutes to the gentlewoman from the Virgin 
Islands, Mrs. Christensen.
    Mrs. Christensen. Thank you, Madam Chairman, and being the 
last one here, a lot of questions have been answered, at least 
in part. And I appreciate your testimonies.
    Deputy Chief Kimerer, I thought, in your opening statement, 
based on my recollection of our trip to Seattle, that you were 
being very diplomatic and generous when you said you would hope 
that the Federal people would recognize that the local people 
have a lot more knowledge of their approximate areas. And in 
response to Congressman Dicks, you seemed to say that the 
relationship between the Feds and the local went very well, and 
they were very supportive.
    But that is not what I remember from my visit. It seemed as 
though the coordination was not there and that, instead of 
relying on the local first responders, sometimes they were 
overstepped.
    Was that really one of the lessons learned?
    And then, I would ask Ms. Mencer, what has the Department 
done--if that is indeed the case that the Department of 
Homeland Security came and they started making some of the 
decisions that probably were best left to the local first 
responders who knew the people, who had been working together, 
who knew the area, if that indeed occurred--what has happened 
to fix that problem?
    Mr. Kimerer. Thank you, Congressman Christensen, for saying 
I am diplomatic. I do not hear that very often.
    The thing I expected to happen, which actually framed the 
way I presented it in my comments, was there would be an awful 
lot of what I refer to as jurisdiction creep, where there would 
be a lack of clarity as to who had that kind of priority or 
primacy of jurisdiction. So my expectations were low.
    I was grateful and pleasantly surprised that, while I am 
sure things were going on behind the scenes to try and resolve 
questions and conflicts, the general posture of the Federal 
official, the Principal Federal Official and the Federal 
agencies was one of helpfulness. Again, it may not have been as 
crystalline as we would have liked.
    Mrs. Christensen. You were pretty upset in their reports 
that they were not--
    Mr. Kimerer. I was focusing my attention on what was going 
on in the field. There were breakdowns in information in the 
field, certainly. I think many of them have been addressed or 
are in the process of being addressed.
    Of course, my priority as a commander, as somebody who has 
been on the ground and who has commanded incidents is, Do I 
have, A, the independence as it were to make decisions and, B, 
do I have the support once I make those decisions?
    Those, I think, were a success story in large measure in 
TOPOFF 2. Where we go from here and where I think kind of was 
the inspiration for my comment was to just simply, you know, be 
vigilant about the inclusion of the local perspective. My 
Department, answers 850,000 calls a year and makes 26,000 
arrests and is responsible for day-to-day policing.
    We have a great body of experience, one that I know Ms. 
Mencer, the Secretary, and Corey Gruber appreciate. But I also 
know that when deadlines are tight and when we have an urgent 
job to do against an implacable foe, sometimes, it is easy to 
just rush into a decision process or a framework or a format. 
So I am trying to be the voice of a reminder to ensure that we 
have the experts and the inclusion we need to make this 
successful.
    Mrs. Christensen. What has happened since that time? 
Because you cannot have any confusion or conflict between who 
is in charge and who is making decisions when you are in real 
time.
    Mr. Kimerer. That is correct. The gentleman that proceeded 
you asked about what we are doing tangibly. I am on a group 
called the Universal Task List Support Group which is 
identifying the essential tasks that every agency needs to do 
within its own limitations to respond to a whole sequence of 
possible terrorist events. That is real, on-the-ground kind of 
work that I think seeks to resolve all potential conflicts in 
times of calm rather than crisis and sets a benchmark for all 
agencies.
    Mrs. Christensen. My time is running really short. Ms. 
Mencer, did you want to comment briefly?
    Ms. Mencer. What I think is interesting about exercises in 
general is that it becomes stressful, just like the actual 
incident would be. And so, because we do not generally hire 
type B personalities to deal with law enforcement and fire, and 
to be Federal officials, when you have an incident like that, 
with the type A personalities who would be in charge, because 
that is what they are trained to do, you do have some conflict 
occasionally.
    With TOPOFF 2 Mike Byrne, who was the Principal Federal 
Official, was actually, in his previous life, a fire chief in 
New York City. So he had a local background and was able to 
relate on the scene, not only from the Federal perspective, but 
from the local one as well.
    Mrs. Christensen. I just hope that there is a standard 
protocol that does not allow for confusion. I understand what 
happens with human beings. But I hope that there is some kind 
of clear guidance.
    Having gone through a couple of disasters when I was not a 
legislator, sometimes we wished they would stay out of our hair 
and out of the way. Is there a role--what is the role that you 
envision for your State legislators and for us? For example, in 
a hurricane, I would be at FEMA headquarters here in their 
command center. How do we make--how do we utilize us optimally 
and not interfere in decision-making?
    Ms. Mencer. I will let Corey answer this as well, but I 
think, at the State level, we have continuity of Government 
operation plans that are in effect in various States so that 
the local legislators know where they are to regroup and how 
they are to maintain their continuity of government. Similarly, 
we need that in the Federal Government, as well, and certainly 
are working towards having a very comprehensive plan to do 
that. You do have an important role to play. I think we saw 
that during President Reagan's funeral, when we had the plane 
over the Capitol and some concern.
    Mrs. Christensen. To me, our immediate impulse is to be 
there where things are going on.
    Ms. Mencer. Right, and we do not want to add to the 
confusion.
    Mrs. Christensen. Where do you want us to be?
    Ms. Mencer. I will ask Corey to step in.
    Mr. Gruber. Ma'am, I think, first and foremost, as you see 
in the lessons from TOPOFF 2, there were very specific issues 
about legal authorities at every level of Government. Perhaps 
where some legal authorities conflicted with one together, for 
example the Stafford Act, and the Public Health Act, it's very 
important that legislators at all levels of Government look at 
those and help to deconflict those so that, when we respond, we 
understand our roles and have the authorities and resources we 
need to do that.
    And then the other role, of course, is adding hearings like 
this that help us bring attention and visibility to the results 
of the exercises so that legislators, again at the State, and 
local level, understand these issues and can act on them.
    Mrs. Christensen. I just, if I could just finish by saying, 
I see that Illinois has really done a great job in dealing with 
the health issues, but I hope that those lessons that they have 
learned become a part of the national way of operating.
    Ms. Dunn. I thank the gentlewoman.
    And thank the panel very much.
    I would like the record to show that the record will remain 
open for 10 days for questions from folks or anything that you 
would like to follow up on, panel.
    Thank you so much for coming back here to testify. It has 
been very helpful to us, I believe, listening to your analysis 
and your good lessons.
    Thank you so much. This hearing is concluded.
    [Whereupon, at 2:58 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                        Material for the Record

Questions for the Record For C. Suzanne Mencer, From the Honorable Jim 
                                 Turner

Setting and Running Exercises
    1. How did the Homeland Security Council set its 15 different 
scenarios for measuring readiness, and how do those measures relate to 
the performance standards mandated in HSPD-8? How are those measures 
used to determine the essential capabilities needed by each state and 
local government?
    2. I continue to be concerned that the Department's inability to 
develop a comprehensive threat and vulnerability assessment is having a 
significant, negative impact on the conduct of your exercise program.
    a. Do these major TOPOFF exercises focus on what an intelligence 
assessment says is a city's highest risk? Do the exercises take into 
account a city's specific critical infrastructure vulnerabilities? If 
not, why not?
    b. Was there any reason to think that Seattle is at especially high 
risk for a dirty bomb or Chicago was at higher risk of biological 
weapons attack? Do these major TOPOFF exercises focus on what the 
intelligence and vulnerability assessment say is a city's highest risk?
    c. Will future National-level exercises utilize scenarios that are 
consistent with the specific threats to and vulnerabilities of the 
location(s) conducting the exercise? If not, why not?
    d. What ``preparedness standard'' is used when planning and 
conducting a terrorism exercise? What level of preparedness are we 
training to achieve? Is this level of preparedness based any risk 
assessment?
    3. Homeland Security Presidential Directive 8 calls for a ``multi-
year national homeland security preparedness-related exercise plan'' to 
be approved by the President. Has that happened? What will that multi-
year exercise plan look like?
    4. According to the TOPOFF 2 after action report, there were 41 
participating federal agencies. What role did Congress have? Were there 
Members of Congress that played a role in the exercise? If not, how do 
you plan to involve the Legislative Branch in future exercises and/or 
the response to an actual terrorist attack?
    5. How many cyberterrorism exercises have you run as part of the 
National Exercise Program? Have cyber events been included as part of 
any other large scale exercises? Which ones?
    6. Some experts say that these exercises, including TOPOFF 2, are 
unrealistic and don't provide a real estimate of how difficult these 
disasters are to respond to. Many of the people brought in to simulate 
victims or ``worried well'' are well-behaved and calm. Especially in 
the event of a WMD attack, I would expect people to be extremely 
frantic. People might not line up in an orderly fashion to get 
vaccines. How do you build chaos into the system during these exercises 
to see how prepared we are to keep the peace?
    7. If city in my district wants to conduct an exercise, how do they 
engage with ODP? Does a DHS person attend all of these exercises? Who 
does the evaluation and the drawing out of lessons learned?

Exercise Coordination
    8. What is ODP's role in coordinating exercises that are led by the 
Coast Guard, FEMA, ICE, and other DHS agencies? When different DHS 
agencies are assisting state and local participants in running 
exercises, and how do you ensure that they provide the same technical 
guidance?
    9. The hearing focused on exercises that are conducted to simulate 
potential terrorist attacks and improve our readiness for such events. 
But everyday, there are real-world emergencies and events that also 
highlight areas where we aren't secure enough. I'm interested in how 
the DHS exercise program incorporates these lessons learned, whether 
from firefighters battling wildfires or the Secret Service running 
security for a national convention.
    10. In conducting exercises, there's clearly going to be overlap 
with other federal departments. I assume that an exercise dealing with 
bioterrorism needs to be planned in consultation with HHS. An exercise 
on identifying and dealing with an animal disease has to be coordinated 
with USDA. How does that interagency process work for planning an 
exercise, working through an exercise, and in terms of paying for it? 
Can you provide a specific example?
    11. How does ODP capture the lessons learned from exercises that 
are run by other departments, like HHS or Defense? Are they made part 
of the MIPT (Memorial Institute for the Prevention of Terrorism) 
database?
    12. How much cooperation and ``jointness'' is there between DHS and 
DOD in homeland security exercises? Are there formal organizational 
ties between DHS and DOD? At what level? Does DHS participate in DOD 
exercises? To the extent that National Guard and Guard Civil Support 
Teams participate in DHS exercises, how does that work, and are the 
Guardsmen under the Governor's or Secretary of Defense's command?

TOPOFF 2 After-Action Reports/Lessons Learned
    13. The TOPOFF 2 after-action report for the Emergency Preparedness 
and Response Directorate and the final after-action report from the 
Department as a whole identified numerous issues directly relating to a 
lack of command and control discipline during the exercise. 
Specifically:
        a. There seemed to be little understanding of inter- and intra-
        agency command and control protocols, and many exercise players 
        did not fully understand the reporting relationships between 
        the FEMA Federal Coordinating Officer, the DHS Principal 
        Federal Official, the FEMA Emergency Support Team, and the DHS 
        Crisis Action Team.
        b. The report also stated that a number of major, pre-existing 
        interagency federal plans' coordination structures and 
        processes were circumvented during the exercise.
    What specific corrective actions have been undertaken by DHS to 
address these issues, and can you assure the Committee that we will not 
see the same types of problems in the next TOPOFF exercise.
    14. The reports further noted that there were logistical 
difficulties accessing DHS assets and resources. Specifically, although 
the Strategic National Stockpile was at that time under ``operational 
control'' of DHS, exercise players were confused as to whether approval 
from the Department of Health and Human Services was necessary to 
access stockpile resources. In addition, the report states that ODP's 
pre-positioned equipment program was unavailable for most of the 
exercise.
    Again, what specific corrective actions have been undertaken by DHS 
to address these issues, and can you assure the Committee that we will 
not see the same types of problems in the next TOPOFF exercise.
    15. Finally, the Department's after action report noted that the 
lack of a robust and efficient emergency communications infrastructure 
in Chicago's hospital system was apparent, and that resource demands--
including short supplies of isolation and negative pressure rooms, as 
well as staff shortages--challenged these hospitals throughout the 
exercise.
    How is DHS working with the Department of Health and Human Services 
to address these critical problems? Can you report on any progress in 
this area?
    16. I understand that ODP is working with the Oklahoma City MIPT 
(Memorial Institute for the Prevention of Terrorism) to create a 
database for first responders with lessons learned from exercises. Can 
you tell me how many records there are in that database and how many 
you'd like to have and how many first responders have used it? Are 
lessons from all of the hundreds of exercises you run annually captured 
in the database? How do you notify the first responder community of the 
availability of new data in this database?
    17. Does DHS use the results from these exercises in evaluating 
first responder grant applications? If a city works with ODP in an 
exercise and identifies gaps in its readiness, can ODP capture that 
information when it makes the next round of grants?

 Prepared Statement for the Record of Advanced Systems Technology, Inc.

    Chairman Cox and members of the Committee, practicing through 
exercises and simulations will help all those who must respond in the 
wake of a terrorist attack to perform better in an actual emergency. 
Superior response, achieved through a range of proven exercises and 
simulations, will result in saved lives, minimized damage, and quicker 
recovery. In a post-September 11 world, we cannot take the importance 
of preparedness and training for granted.
    Advanced Systems Technology commends the Committee for recognizing 
this fact and for holding this important hearing. You should know of 
the wide range of computer-based simulation tools that are readily 
available for law enforcement and public safety personnel. And 
simulation exercises have proven to work well in both military and 
civilian sectors.
    Simulation tools range from virtual, immersive simulations that are 
highly functional for first-responder decisionmaking activities, to 
constructive simulations that are highly functional for command-level 
decisionmaking activities, to predictive simulation models that are 
used to predict how particulates or gasses move through the atmosphere. 
Each of these simulation tools has a place in the exercise and 
simulation arena, if we expect all first responders (police, fire, 
emergency medical) at all levels of government (federal, state, local, 
military) to respond most aptly should a terrorist or other catastrophe 
occur on American soil.
    One factor holding up practicing to make perfect involves 
allocation of homeland security funds. Our understanding is that the 
Department of Homeland Security has spent funds to examine several 
simulation tools, but has not yet allowed funds to be allocated to use 
cost-saving computer simulation tools by local and state governments in 
their training or exercise activities. It is important that the DHS 
Office of State and Local Government Coordination and Preparedness 
approve computer-based model and simulation tools as a required element 
of emergency-response decisionmaking exercises and training activities 
for all hazards preparation. Otherwise, taxpayer dollars will only be 
spent on expensive exercises that certainly have a place, but should 
not be viewed as the only tool in the preparedness training toolbox.
    With regard to civilian-military interaction and cooperation, many 
successful cross-disciplinary activities have been conducted since the 
events of September 11, 2001. For example, in the National Capital 
Region, three exercises have been conducted with joint cooperation 
among local police, fire, emergency medical services, the U.S. 
Marshal's Service, the U.S. Marine Chemical-Biological Incident 
Response Force (CBIRF), and DHS Federal Protective Service.
    In El Paso, Texas, the Department of Justice sponsored a large 
school safety exercise directed at command-level personnel. It involved 
two schools in different school districts and exercised 21 separate 
school, local, state, federal, and military emergency response 
agencies--this without touching precious first-line resources or 
disrupting school activities.
    Each of these large-scale, multiagency, cross-disciplinary 
exercises was stimulated by the Emergency Preparedness Incident Command 
Simulation (EPiCS) system, a system that is owned and operated by the 
U.S. Army TRADOC Analysis Center. EPiCS is the result of an effort to 
use existing military technology for civilian applications. It is based 
on the U.S. Army's Janus war game program, with state-of-the-art 
visualization tools to enhance environmental realism. EPiCS puts 
decisionmakers from each agency involved in a computer simulation 
exercise to the test in ``real time,'' using their own communications 
equipment. Unlike other programs, this simulation tool integrates on-
site decisions and results in the likely consequences of such a 
decision. This aids in the learning process, which is why it has proven 
invaluable to crisis managers and their staffs from both civilian and 
military agencies. Command-level training goes hand-in-hand with first-
responder training. Without one, the other will fail.
    As most experts acknowledge, it is critical to train and exercise 
response agency personnel at all levels. Standards for such training 
are provided by the National Incident Management System and the 
National Response Plan, and measures are provided by the Homeland 
Security Exercise and Evaluation Program. Training and exercising these 
standards can be cost-effective, recorded, and repeatable using 
computer-based models and simulation.
    A sound model for the emergency response community for standards 
training is used by the Defense Threat Reduction Agency, which conducts 
a series of five exercises in an exercise cycle. This stepping-stone 
sequence focuses on each core element individually and then combines 
these activities into a unified response. The sequence begins with a 
seminar exercise that introduces the overall objectives and procedures. 
Then comes a series of tabletop exercises that progressively involve 
local, state, federal, and military resources. Using the lessons 
learned from these exercises, all agencies thenparticipate in a unified 
command-level exercise that leads to the final full-scale exercise. 
This cycle provides opportunities to discuss, revise, retrain, and 
retest aspects of training without expending valuable resources until 
all the pieces come together for a capstone, full-scale exercise. At 
each step, simulation tools are used and have proven to be valuable, 
effective, and cost-saving.
    Simulation, virtual reality, predictive models, and constructive 
models can and should all play important parts in reducing the cost and 
increasing the value of emergency response and terrorist-related 
training and exercises. Full-scale exercises are even more valuable 
after other types of exercise activities using models and simulation 
tools have been conducted. For instance, the $16 million expended on 
TOPOFF 2 could have been spent more effectively with more robust, 
recorded, and replayable results using computer-based simulation and 
modeling tools. Or the TOPOFF exercise could have been preceded by a 
progression of other sorts of exercises in order to maximize its value. 
This perspective should be considered as the third TOPOFF exercise is 
planned and executed.
    While practice will make perfect where terrorism and emergency 
response is concerned, it is important to keep in mind that large-scale 
exercises--which involve large numbers of personnel, tie up limited 
resources such as fire trucks and helicopters, can disrupt city streets 
and the routines of citizens, and are usually costly--are just one of 
many kinds of exercises and simulations available for this mission. All 
the tools in the toolbox of preparedness training should be employed, 
each one filling a distinct, vital part in preparation for the worst.
    Our nation's enemies will probably not strike in the same manner on 
the same targets each time, but they clearly intend to strike. 
Therefore, first responders across the nation--from the police officer 
on the street to the midlevel commander calling the shots and 
coordinating activities to top officials--all need training, and the 
training they get should be diverse, appropriate, and cost-effective. 
Exercises are important, and computer-based simulations can make them 
better.

                                 <all>

</pre></body></html>
